<html>
<title> - [H.A.S.C. No. 114-94]The Challenge of Conventional and Hybrid Warfare In The Asia-Pacific Regional: The Changing Nature of The Security Environment and It's Effect of Military Planning</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-94]

                   THE CHALLENGE OF CONVENTIONAL AND

                   HYBRID WARFARE IN THE ASIA-PACIFIC

                     REGION: THE CHANGING NATURE OF

                      THE SECURITY ENVIRONMENT AND

                    ITS EFFECT ON MILITARY PLANNING

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 24, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                              _____________
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
99-625                       WASHINGTON : 2017

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>  



                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Harris, ADM Harry B., Jr., USN, Commander, U.S. Pacific Command..     3
Scaparrotti, GEN Curtis M., USA, Commander, United Nations 
  Command, Combined Forces Command, and U.S. Forces-Korea........     4

                                APPENDIX

Prepared Statements:

    Harris, ADM Harry B., Jr.....................................    43
    Scaparrotti, GEN Curtis M....................................    67
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Castro...................................................    85
    Mr. Coffman..................................................    86
    Mr. Nugent...................................................    88
    Mr. Scott....................................................    86
    Mr. Shuster..................................................    85
    Mr. Takai....................................................    87
    Mr. Wilson...................................................    85
    
.    
 THE CHALLENGE OF CONVENTIONAL AND HYBRID WARFARE IN THE ASIA-PACIFIC 
REGION: THE CHANGING NATURE OF THE SECURITY ENVIRONMENT AND ITS EFFECT 
                          ON MILITARY PLANNING

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 24, 2016.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Events of recent days remind us that American national 
security cannot focus just on the Middle East or Africa or 
Europe; there are real and growing threats facing us in Asia as 
well. The erratic North Korean regime persistently marches 
toward more sophisticated nuclear weapons and longer range 
missiles, despite past agreements it has signed and despite 
pressure from China and others. Meanwhile, China is also 
marching steadily toward making the South China Sea a private 
lake, fully under Chinese control. Again, regardless of the 
promises made or the pressure applied, it moves ahead with its 
own agenda.
    While we in the country are understandably alarmed at these 
developments, we have got to go beyond concern and decide how 
we will respond as we carry out our constitutional duties to 
raise and support, provide and maintain the military forces of 
the United States. The threats facing us in Asia cover a wide 
spectrum of military capability: from new, modern nuclear 
warheads that are steadily being produced by the Chinese and 
determined efforts by North Korea to upgrade its nuclear 
arsenal to missiles of increasing range and lethality to hybrid 
war-like tactics, which we have seen in other theaters as well.
    To me, this means we must have a credible nuclear 
deterrent. We must have missile defense. We must have 
sufficient naval presence in order to deter some of what we are 
seeing in Asia. We also must work with key allies in the 
regions, strong allies, such as Japan, the Republic of Korea, 
Taiwan, Australia, among others. Only together can we ensure 
that this vital region of the world continues to be an economic 
engine and continue--and will have peace and stability in the 
future.
    We are very grateful to have our witnesses today to help 
talk about the key role the United States military plays in 
achieving those goals. Before I turn to them, I will yield to 
the distinguished acting ranking member, Mrs. Davis from 
California.

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you very much, Mr. Chairman.
    And if I may, I want to ask unanimous consent to submit our 
Ranking Member Smith's statement for the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    Mrs. Davis. And I also wanted to welcome Admiral Harris and 
General Scaparrotti and to thank you for appearing before our 
committee today.
    The Indo-Asia-Pacific region is critical to our national 
interests. And despite your best efforts in promoting growth 
and prosperity through our committed presence and engagement, 
the challenges that we face, as you well know, are no small 
task. The North Korean regime resorts to brinkmanship and open 
provocation to further its objectives. North Korea's nuclear 
tests have openly defied the international call for a nuclear-
free Korean Peninsula, and the regime uses hybrid and 
asymmetric warfare to reinforce its survivability and to exert 
undue influence.
    As the chairman noted, we must work with our allies in the 
region to contain the North Korean regime and deter further 
aggression and, of course, be prepared to act if necessary. 
Reinforcing our missile defense posture on the peninsula in 
coordination with South Korea is one step in the right 
direction.
    China continues to press its claims in the South China Sea, 
and their actions have shown that it too will resort to gray 
zone tactics short of open conflict to achieve foreign policy 
goals. Instead of further provocation, China should abide by 
internationally accepted norms and contribute to a peaceful and 
equitable resolution to the disputed claims.
    These developments, as we all acknowledge, emphasize the 
need for a persistent U.S. presence. We should continue to 
bolster collective security, help to peacefully address 
concerns, facilitate productive multilateral exchanges, 
encourage democratization efforts, and reinforce ties with our 
many allies and partners.
    Mr. Chairman, I look forward to our presenters today.
    Thank you again very much for being here and for your great 
service to our country. Thank you.
    The Chairman. Thank the gentlelady.
    Just to remind members, immediately upon the conclusion of 
this open hearing, we will go to a closed classified session 
with our witnesses today, so if you have questions that touch 
on classified material, it would be best to do that later.
    I am very pleased to welcome our witnesses today: Admiral 
Harry B. Harris, Commander, U.S. Pacific Command; and General 
Curtis Scaparrotti, Commander, United Nations Command, Combined 
Forces Command, and U.S. Forces in Korea.
    Without objection, both of your written statements will be 
made part of the record, and feel free to summarize them or 
make such other comments as you would like.
    Admiral Harris, thanks for being here.

  STATEMENT OF ADM HARRY B. HARRIS, JR., USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Harris. Thank you, Chairman Thornberry and 
Representative Davis and distinguished members. It is an honor 
for me to appear before this committee. I am pleased to be here 
with General Scaparrotti to discuss how U.S. Pacific Command 
[PACOM] is protecting America's interests across the vast Indo-
Asia-Pacific.
    Since taking command of PACOM last May, I have had the 
extraordinary privilege of leading the 400,000 soldiers, 
sailors, airmen, marines, Coast Guardsmen, and civilians 
serving our Nation. These dedicated men and women and their 
families are doing an amazing job, and I am proud to serve 
alongside them.
    To provide you some issues of concern, I would like to 
briefly highlight a few regional issues. As China continues its 
pattern of destabilizing militarization of the South China Sea, 
we have resumed our freedom of navigation operations there, a 
waterway vital to America's prosperity, where $5.3 trillion in 
trade traverses each year.
    General Scaparrotti and I remain aligned in dealing with 
North Korea's recent underground nuclear test, followed by its 
ballistic missile launch.
    A revanchist Russia is revitalizing its ability to execute 
long-range strategic patrols in the Pacific to include the 
basing of its newest strategic ballistic missile submarine and 
last month's bomber flights around Japan.
    Recent terrorist attacks in Bangladesh and Indonesia 
underscore the fact that violent Islamic extremism is a global 
concern that must be crushed.
    We have continued to strengthen our alliances and 
partnerships. Japan's peace and security legislation 
authorizing limited collective self-defense will take effect 
this year. This legislation and the revised guidelines for 
U.S.-Japan defense cooperation will significantly increase 
Japan's ability to work with us.
    Thanks to the great leadership of General Scaparrotti here, 
South Korea and the United States have taken a strong and 
unified stance to maintain peace and stability on the Korean 
Peninsula. In the face of recent North Korean aggression, PACOM 
hosted a tri-CHOD [Chief of Defense] meeting between U.S. 
Chairman of the Joint Chiefs, General Dunford; Japan Chairman, 
Admiral Kawano; and South Korea Chairman, General Lee. 
Trilateral cooperation between Japan, South Korea, and the 
United States is a priority, and I am doing everything I can to 
enhance it.
    Our alliance with the Philippines took an important step 
forward when the Philippine Supreme Court recently upheld the 
Enhanced Defense Cooperation Agreement, or EDCA, which will 
provide significant partnership and access benefits.
    I am also excited about our growing relationship with 
India, where I will visit next week. As the world's two largest 
democracies, we are uniquely poised to help bring greater 
security and prosperity to the entire region.
    Two visionary policies are now coinciding as the United 
States rebalances west to the Indo-Asia-Pacific and India 
implements its ``Act East'' policy. Last month's Malabar 
exercise between India, Japan, and the United States shows the 
security interconnectedness of the Indian Ocean, Asia, and the 
Pacific Ocean.
    I rely heavily on Australia, not only for its advanced 
military capabilities across all domains but, importantly, for 
Australia's warfighting experience and leadership in operations 
around the world.
    These examples clearly demonstrate to me that the United 
States is a security partner of choice in the Indo-Asia-
Pacific. It is also why I believe that our strategic rebalance 
has taken hold. Given that four of the five strategic problem 
sets identified by Secretary Carter--China, North Korea, 
Russia, and ISIL [Islamic State of Iraq and the Levant]--are in 
our region, I would say that we can't rebalance fast enough. 
But there is more work to do, and we must not lose the 
momentum.
    So I ask this committee to support continued investment in 
future capabilities. I need weapons systems of increased 
lethality that go faster, go further, and are more survivable. 
If funding uncertainties continue, the U.S. will experience 
reduced warfighting capabilities, so I urge the Congress to 
repeal sequestration.
    Finally, I would like to thank this committee and the whole 
Congress for your enduring support to PACOM and to the men and 
women in uniform, our civilian teammates, and our families.
    Thank you. And I look forward to your questions.
    [The prepared statement of Admiral Harris can be found in 
the Appendix on page 43.]
    The Chairman. Thank you, sir.
    General.

STATEMENT OF GEN CURTIS M. SCAPARROTTI, USA, COMMANDER, UNITED 
NATIONS COMMAND, COMBINED FORCES COMMAND, AND U.S. FORCES-KOREA

    General Scaparrotti. Chairman Thornberry, Ranking Member 
Davis, and distinguished members of the committee, I am honored 
to testify today as the Commander of the United Nations 
Command, Combined Forces Command, and the United States Forces-
Korea [USFK]. On behalf of the American soldiers, sailors, 
airmen, and marines, and our civilians serving in the Republic 
of Korea, thank you for your support.
    Admiral Harris, thank you for your vision and the 
professional support of the entire PACOM team for USFK.
    I have prepared brief opening remarks, and I appreciate 
that my written posture statement is being entered into the 
record.
    Since my last testimony, our U.S.-ROK [Republic of Korea] 
alliance has continued to focus on advancing our combined 
capabilities. Some of these advanced capabilities include the 
establishment of the first U.S.-ROK combined division, 
additional rotations of U.S. forces to the peninsula, the 
execution of our annual combined training exercises, and steady 
progress on our $10.7 billion plan to relocate U.S. forces in 
Korea. Furthermore, the Republic of Korea has improved its 
capabilities with the recent establishment of the Korean Air 
and Missile Defense System and Center and the Allied Korea 
Joint Command and Control System.
    The Republic of Korea has also invested in modern 
equipment, with the purchase of the F-35 Joint Strike Fighter, 
Global Hawk, the Patriot Advanced Capability-3 missile 
upgrades, and also AH-64 Apache helicopters. These alliance 
advances help counter the real and the proximate North Korean 
threat.
    North Korea continues to conduct provocations and to 
resource its large conventional force. And, of greater 
significance, North Korea continues to aggressively develop 
nuclear weapons and ballistic missiles in direct violation of 
the U.N. Security Council resolutions, as demonstrated with its 
fourth nuclear test and its fifth TD-2 launch in January and 
February.
    In regards to this threat, my top concern remains the 
potential for a North Korean provocation to start a cycle of 
action and counteraction which could quickly escalate, similar 
to what we experienced this past August. While I am proud to 
report that our alliance stood shoulder to shoulder and 
deescalated the situation, it could have spiraled out of 
control and demonstrates why we must remain ready to ``fight 
tonight.''
    To maintain this level of readiness, we will continue to 
focus on sustaining, strengthening, and transforming the 
alliance, with an emphasis on our combined readiness in four 
critical areas. First, ISR [intelligence, surveillance, and 
reconnaissance] remains my top readiness challenge. CFC 
[Combined Forces Command] USFK requires additional persistent 
all-weather ISR capabilities, as well as dependable moving 
target indicator support to maintain situational awareness and 
provide adequate decision space.
    Second, it is critical for the alliance to establish a 
layered and interoperable ballistic missile defense. To advance 
this goal in the near future, we will begin bilateral 
consultations regarding the feasibility of deploying the THAAD 
[Terminal High Altitude Area Defense] system to the Republic of 
Korea, which would complement the Patriot system's 
capabilities.
    Third, we must maintain an adequate quantity of critical 
munitions to ensure alliance supremacy in the early days of 
conflict on the peninsula. This requirement is further 
amplified by the approaching loss of cluster munitions due to 
shelf-life expiration and the impending ban.
    And, fourth, we must focus on command, control, 
communications, computers, and intelligence, or C4I. Both the 
United States and the Republic of Korea are investing in new 
tactical equipment that will comprise a reliable C4I 
architecture, but more is required.
    In closing, I would like to express how proud I am of our 
service members, our civilians, and their families serving in 
the Republic of Korea, who never lose sight of the fact that 
they are serving on freedom's frontier.
    I would also like to recognize Ambassador Mark Lippert, 
Admiral Harry Harris, and the U.S. and ROK senior leaders for 
their enduring commitment to our mission.
    I thank you and this committee for your support, and I look 
forward to your questions.
    [The prepared statement of General Scaparrotti can be found 
in the Appendix on page 67.]
    The Chairman. Thank you, sir.
    Let me ask you each to address really a very basic 
question, and that is, do you have the military forces required 
to fulfill the missions you have been assigned?
    And, Admiral Harris, you mentioned the freedom of 
navigation operations, which have been underway. From what one 
reads, they are pretty few and far between and don't seem to be 
making much of a difference, because we also read that the 
Chinese have put surface-to-air missiles on these new islands 
they are constructing. So if you could address, broadly, in 
your theater, do you have the military forces to carry out the 
missions you are assigned, and then, more specifically, the 
Chinese South China Sea issues that have arisen.
    Admiral Harris. Yes, sir. Happy to do that.
    With regard to the first issue of do I have the forces 
necessary to conduct our missions, today, I feel I do. I think 
we are set up well in NDAA [National Defense Authorization Act] 
2016. Thanks to the Congress for that. And in the budget 
submission for fiscal year 2017, it meets the concerns that I 
had in the past, the fiscal year 2017 budget addresses those 
concerns. So I am comfortable with where we are today, but 
today we are not at war, and I think that is an important 
point.
    There are concerns that I have, clearly. As General 
Scaparrotti mentioned, there are concerns about munitions. My 
submarine numbers--and I mentioned this yesterday during my 
testimony--I don't have the submarines that I feel I need, but 
that is a function of the total number of submarines that the 
United States Navy has and the global demand for that platform.
    More persistent intelligence, surveillance, and 
reconnaissance aircraft and systems, ISR, is a requirement, I 
think, as well as cyber and getting after cyber.
    I have testified in the past and have spoken in the past 
about the need for a long-range anti-surface missile, a missile 
that can out-stick, if you will, Chinese missile systems in the 
Pacific and so on. And I am pleased that in the fiscal year 
2017 budget, you know, there are funds put against development 
of LRASM, the long-range anti-surface missile. Secretary Work 
recently spoke about the work that has been done to improve the 
SM-6 missile and give it an anti-surface and anti-ship 
capability, which I think is dramatic, and that is exactly what 
I need in the Pacific.
    With regard to your question about China's actions, in my 
opinion, China's intent to militarize the South China Sea is as 
certain as a traffic jam in DC. It is no doubt in my mind what 
their intent is. Their SSMs, their surface--their SAMs 
[surface-to-air missiles], rather, their missiles on Woody 
Island, their 10,000-foot runways that they are building in 
Subi Reef and Fiery Cross Reef and elsewhere, their advanced 
radars that we saw pictures of the last couple days at 
Cuarteron Reef, these are all indications of militarization. 
And, in my mind, they are changing the operational landscape of 
the South China Sea.
    The Chairman. And if you could address, sir, the freedom of 
navigation operations. Do you have enough ships, and what kind 
of ships would you say are most effective for those sorts of 
operations?
    Admiral Harris. Sure. So, on the freedom of navigation 
operations, clearly, have enough ships to do that. The 7th 
Fleet out there, homeported principally in Japan, has the 
ships, the requisite ships to do freedom of navigation 
operations.
    The best kind of ship, in my opinion, to do that is the 
DDG-51-class, Arleigh Burke-class destroyer, highly capable, 
the right kind of weapons and the right kind of systems to 
ensure that freedom of navigation operations are conducted well 
and the ship is well able to defend itself should those 
operations go awry.
    Regarding the frequency of freedom of navigation operations 
and their effect on China's militarization in the South China 
Sea, freedom of navigation operations, the military part of 
that, the freedom of navigation operation itself is only a part 
of the broader policy approach to what China's doing. So I 
think my part of that, the execution of the operation itself, 
is one piece of it, and I think we are doing that, as I said, 
and we will be doing more of it, as I have spoken before in 
other venues. We will be doing them more, and we will be doing 
them with greater complexity in the future. And as the 
Secretary said, we will fly, sail, and operate wherever 
international law allows. And then there is a policy piece to 
it and a diplomatic piece and a political piece to it, and that 
is for the whole-of-government effort on moving China and their 
position in the South China Sea.
    The Chairman. General, do you have the forces you need to 
carry out the mission to which you have been assigned?
    General Scaparrotti. Chairman, thank you for the question. 
I would say that, first of all, for the forces on the 
peninsula, I enjoy being financed or budgeted at the very top 
of the priority list, so the forces are getting the funding to 
do the exercises, the training, and assets that they need on 
the peninsula to be ready to fight tonight, and I appreciate 
the support of this committee in ensuring that we do have that 
resourcing.
    As I noted in my opening comments, there are areas of 
concern. First is ISR. On the Korean Peninsula, we are facing a 
foe that is a million strong, and it is literally 35 miles from 
the capital and the--you know, half of their population, the 
Korean population, 35 miles away with an adversary that uses a 
cycle of provocation. So, typically, I think I have about 12 
hours or less warning, and persistent ISRs allows me to have 
that indication and warning and to set my posture to first 
defend South Korea and the large American citizen population 
that we have there as well. So ISR is something that is at the 
top of my list.
    I mentioned ballistic missile defense. You are well aware 
of the large arsenal that North Korea has in ballistic missiles 
that are--that is growing in strength but also in accuracy. I 
think that the discussions we are having right now to add THAAD 
to Korea are very important. We need THAAD there to have a 
layered defense. I need more munitions so that I have the first 
30 days of munitions for the fight in terms of interceptors, 
and I rely on the quick deployment of at least two more 
battalions of Patriot as well if we go to crisis. So, you know, 
the assets of BMD [ballistic missile defense] there, the more 
that I have there, the better protected we are.
    And I think those are the primary of those four that I 
would mention shortly here, and I can go into more detail 
later.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And, again, I appreciate you both being here.
    I wonder if you could expand a little bit more on the South 
China Sea issues, obviously the militarization there, China's 
consolidation of its claims and rejection of internationally 
accepted methods of dispute. So how might we best mitigate the 
risk of miscalculation leading to increased tensions or even 
conflict in the area?
    Admiral Harris. Well, I think, ma'am, that, short of 
military confrontation, which we all want to avoid, I think the 
way forward, the best way to go forward is to present and 
maintain our credible military power and to maintain our 
network of like-minded allies, partners, and friends in the 
region and encourage them to operate in the South China Sea. 
And we must continue to operate in the South China Sea to 
demonstrate that that water space--and the air above it--is 
international and not the territory of any nation.
    I think the diplomacy, obviously, is probably the most 
important thing. We need to encourage China to act as a 
responsible actor on the international space when it comes to 
things like the South China Sea. Secretary Kerry recently said 
at Sunnylands that we have only one policy with regard to the 
South China Sea, and that is a negotiated settlement, that is 
to negotiate and work with China, and that is kind of where I 
am on that.
    Mrs. Davis. Thank you, Admiral.
    And, perhaps, General Scaparrotti, with your hat as well, 
how do we better complement, then, our efforts? Certainly you 
are speaking to the defense lane very appropriately here today, 
but I am wondering about other Federal agencies and working 
with them in diplomatic, economic, and certainly assistance 
efforts in that kind of holistic way. What are we doing? Which 
could we be doing more? Where are the gaps?
    General Scaparrotti. Well, I think, you know, we know from 
experience that a holistic approach is always the most 
effective, and so I think, including Treasury, many of the 
other agencies here, including them in all that we do, we on--
in USFK as a subcomponent command, we also have close 
connection to all those agencies that work with PACOM, and they 
are regularly a part of our planning, our exercises, in fact, 
the one we will do this next month. And I think that type of 
close collaboration with all the agencies in our government, 
bringing them into the planning, the exercises that we do, 
gives them good awareness. And then, you know, as things happen 
in the theater, we have a relationship, we have an 
understanding, and we can work and collaborate much more 
quickly.
    Mrs. Davis. And do you see a greater role for Congress in 
this as well, since we tend to stay in our lane also?
    General Scaparrotti. Well, I do. And I appreciate the fact 
that many Members of Congress come out to see us. Particularly, 
I know it is a long trip to Korea, but I think Korea is a place 
that is complex, and until you have stood on the DMZ 
[Demilitarized Zone], then just that picture alone is quite 
informative, and I appreciate the fact that so many make the 
trip and have the conversation and discussion with us.
    Mrs. Davis. Yeah. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral, General, thank you so much for your service. 
I want to thank you, the service members, military families. 
What a commitment of protecting American families, also 
protecting our great allies.
    And, Admiral Harris, I am particularly grateful that I have 
had the opportunity to visit with you in the past. And, to me, 
you are a living example of America's alliance with Japan. It 
is just, to me, so historic and inspiring to know that we have 
a Japanese-American as the U.S. Pacific commander at Pearl 
Harbor. How far we have come. And just being in your presence 
has just been so positive and has to be reassuring to the 
people all over Asia.
    Also, I am very grateful that my family has had an 
association with Asia. My dad served in the Flying Tigers 
during World War II, and I grew up hearing from him a great 
affection for the people of China and the people of India. And 
so I am hopeful that indeed positive can continue to advance, 
but with that in mind, Admiral, I appreciate your interest in 
maintaining our technological superiority, and later today, 
there will be a subcommittee hearing of the Emerging Threats 
and Capabilities Subcommittee on the Department of Defense 
science and technology programs. These issues continue to be of 
crucial importance to this committee, particularly the 
chairman, and this is key to our warfighters' future success.
    Could you please describe what do you see as the right 
balance between investing in future capabilities, like the 
third offset strategy, and getting the commander what he needs 
now? How has the fiscal year 2017 budget request prioritized 
the modernization affecting your command?
    Admiral Harris. Thanks, sir, for those questions. I will 
just start by talking about General Stilwell for just a second. 
There is an article in today's clips about how the Chinese are 
honoring General Stilwell in Chongqing in China at a museum 
that is run by the government there, and the relationship that 
he formed and his feelings for the Chinese. So I think that is 
an appropriate way to start this off. Thank you for that.
    Mr. Wilson. Absolutely.
    Admiral Harris. With regard to the fiscal year 2017 
request, it has, I think, a good mix in it of funding for what 
we need today and funding for technological innovations, such 
as the third offset. Recently, Secretary Work talked about the 
SCO office, the Special Capabilities Office, and the work that 
they are doing. And this is important stuff as we seek to not 
only modernize our force but also to maintain the force we 
have.
    And so, you know, as a combatant commander, I don't have 
the luxury of waiting 5 years for the next great thing that is 
going to come down the pike, because I have to be ready to 
fight tonight, and that is the stance that we take in the 
Pacific most--epitomized by General Scaparrotti and the 
challenge he has on the peninsula. So, you know, I can't say to 
you all: Hey, just give me a 5-year break here while we wait 
for the next technology thing to come down the road. So I need 
to have a modernized, capable military today, but I recognize 
as a uniformed officer that we have to modernize, and so that 
is the challenge, I think, for the service chiefs.
    You know, I talked yesterday about how much easier it is to 
be an insatiable combatant commander than it is to be a service 
chief in 2016, but as a nation, we have an insatiable need for 
security, and rightfully so. And so, you know, it comes to the 
point, I guess, in the forward forces.
    So I am pleased with how my input to the Secretary was 
upheld in the fiscal year 2017 budget, and I am pleased that 
that budget not only ensures that I have a modern, capable 
force to fight today but that the needs that I have identified, 
the shortfalls that we talked about in the last question, are 
being addressed.
    Mr. Wilson. And we look forward to your input.
    And, General Scaparrotti, China and North Korea's increased 
utilization of hybrid warfare, are we prepared for cyber 
warfare potential on the Korean Peninsula?
    General Scaparrotti. Sir, it is one of my concerns, given 
that North Korea has made a deliberate effort to improve their 
capabilities as much as they can. Kim Jong-un has stated that. 
And, as you know, he has demonstrated their capability with 
Sony and the attack on South Korea's media and banking 
industries in 2013. So I am very concerned about it.
    I would answer your question and say, yes, I believe we are 
prepared today on our--you know, defense of our military 
systems and within the cyber domain, but it is a rapidly 
developing domain and area that we have to stay on it every 
day. We specifically have been working on our joint cyber 
center. I recently have been added a cyber mission team 
specifically for Korea, and that is building now. That is a 
great addition to our capability.
    I would mention to you that I also have another concern, 
and that is that I am within an alliance, the ROK's capability 
and ours, so we are collaborating with their joint cyber center 
as well to make sure that we don't have a vulnerability because 
of our combined systems, et cetera, and that is work that we 
need to continue to do.
    Mr. Wilson. Thank you.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    And thanks, gentlemen, for making it out.
    You know, on the West Coast, it is not that far to go to 
Korea, so maybe, from here, it is, but it is not that far from 
home.
    So we get a lot of questions about when North Korea does 
things and when China does things. First, for Admiral Harris, a 
couple reports have come out recently, one looking at the 
rebalance strategy and what can be done to improve that and 
enhance that. One suggestion--this is out of CSIS [Center for 
Strategic and International Studies]--one suggestion was a 
western Pacific joint task force, and I was wondering what your 
opinions about that are. And in the answer, if you could relate 
that to building partnership capabilities and whether or not, 
much like we do with NATO [North Atlantic Treaty Organization], 
there is a NATO commitment of a 2 percent of GDP [gross 
domestic product], but we can do that in a formal structure, if 
there is a value of informal commitments from our friends and 
allies in the region to invest in their capabilities to support 
regional objectives.
    And then I have got a question for the general after that.
    Admiral Harris. Yes, sir. Good to see you.
    Mr. Larsen. Good to see you.
    Admiral Harris. On the CSIS study, I have read it, they had 
a number of interesting recommendations in there. I had a 
meeting with the CSIS leadership and spoke to them in my last 
trip to Washington.
    On the idea of a maritime task force for the western 
Pacific, we have one, and it is called PACOM. And if there is 
some smaller entity of that, we have that also, and it is 
called the 7th Fleet. So I am very comfortable with the command 
and control structure and the forces as they are arrayed under 
PACOM. So there is a commander of the U.S. Pacific Fleet, which 
is a JTF [Joint Task Force]-certified, large combatant level 
staff headed up by a four-star that can carry out any operation 
that I need; the same with U.S. Army Pacific, General Brooks, 
four-star Army general, huge land forces under his command that 
can do that, if necessary. And then, in the far Pacific, in the 
Far East, you know, there is the U.S. 7th Fleet and all of its 
capability, there is the 3rd Marine Expeditionary Force and all 
of its capability. So I think that we have in existence today 
the thing that CSIS recommended by another name. So I am 
comfortable with that, but I appreciate the insights that I got 
from their study.
    Regarding partner capabilities, we could not do what we 
need to do alone, and we have great allies and partners in the 
region. I will start with Japan and its capability: a very 
powerful military, a tremendous maritime self-defense force, a 
great submarine force, a very capable land force, and a very 
strong air force in Japan. And on the other end of the globe 
down there is Australia, a partner and ally who has been with 
the United States, fought with us in virtually every conflict 
in the 20th century, and certainly into the 21st century. They 
are--they have a highly specialized, highly trained, very 
capable military that are completely aligned in terms of 
equipment and training and that with the United States. So, as 
I mentioned in my opening statement, I rely heavily on 
Australia, not only for their operational capability but for 
their warfighting experience and advice.
    I think we will not see anything resembling NATO----
    Mr. Larsen. Right.
    Admiral Harris [continuing]. In the Pacific. It is--each 
country there is so different--and they face different levels 
of threat; they have different levels of relationships with 
other countries--that I don't think we will get this large, 
broad multilateral alliance like NATO. But the good news is we 
have strong alliances with five nations in the Pacific. We have 
strong partnerships with a whole lot more. And we are working 
hard, working strongly on improving trilateral cooperation 
between the U.S., Japan, and Korea; between the U.S., Japan, 
and Australia; and the U.S., Japan, and India.
    Mr. Larsen. Okay. Yeah. I just have very few seconds left 
for--thank you.
    General, just quickly, would the ROKs be prepared today for 
THAAD if there was an agreement today to deploy THAAD to the 
Republic of Korea, and if not, what does that timeline look 
like?
    General Scaparrotti. Representative, we will have a--we are 
forming a joint working group that I think will have its first 
meeting probably within a week. I think we will have that 
settled. THAAD is a complex system. It is going to take some 
time for us to find the right location, because where you 
locate it makes a difference of how effective it is. So we have 
got to find the right location and do that work, which we will 
do in accordance with our SOFA [Status of Forces Agreement]. I 
am confident that that process will go well, but at this point, 
it is hard--it is difficult for me to tell you what the 
timeline looks like, but I should be able to do that, you know, 
and relatively soon.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Scaparrotti, I wanted to follow up on that area. 
Given Kim Jong-un's erratic behavior and recent nuclear tests 
and ballistic missile tests, what capabilities do you need to 
make sure you can maintain the security of your forces as well 
as the ROK?
    General Scaparrotti. As I said, the most important to me is 
ISR, because it allows me to be in the proper posture to be 
able to get ahead of whatever it is he intends to do. And on 
the Korean Peninsula, I have got a very large conventional 
force in very close proximity to Seoul. That is one problem 
set. And then I have their asymmetric problem set, which is 
primarily their nuclear; their missile; their SOF [special 
operations] forces, the largest SOF forces in the world, 60,000 
strong; long-range artillery capability; and their cyber. Many 
of those are deeper into the country, so it is a very difficult 
ISR challenge, probably one of the toughest in the world, given 
the terrain, mountainous.
    Mr. Rogers. Are your current ISR capabilities adequate?
    General Scaparrotti. I need more persistence, sir. That 
would be very, very helpful. So that is the one I come up. And 
then the other four in particular that I mentioned earlier are 
the ones that I most need.
    Mr. Rogers. Great. Thank you.
    Admiral Harris, can you please explain the advantages of 
ensuring that U.S. Patriot battalions have modular capability?
    Admiral Harris. Sure. Clearly, Congressman, because of the 
mobility associated with that and the fact that I can move the 
Patriots around with some degree of flexibility. So in the 
Pacific, Patriot is a key part of our ballistic missile 
defense, as is THAAD. So we have a THAAD battery in Guam that 
is there on a temporary basis now, expected to go to a 
permanent status, PCS [permanent change of station] status, if 
you will, later this year, and then, as General Scaparrotti 
mentioned, as we work with the Koreans to consult on putting 
THAAD in Korea as well. Then the other part of that, of course, 
is Aegis, so----
    Mr. Rogers. Speaking about Aegis, my understanding is the 
discussion was to take the Aegis Ashore site there in Hawaii 
and activate it instead of just being a training facility. Now 
I hear there is discussion of closing it down. What is going on 
with----
    Admiral Harris. Well, that--so I talked about my desire to 
keep it as a permanent facility, because it has demonstrated a 
great capability. Now, it was built as a training facility and 
testing facility for the Aegis Ashore sites in Europe, but I 
think we should study it. I think we should take a hard look at 
it and whether we want to make it a permanent facility or not, 
but there is a lot between now and then.
    Mr. Rogers. Okay.
    Admiral Harris. This is just an idea now, but the Aegis 
Ashore in Hawaii, for example, has no interceptors, right. I 
mean, it--so----
    Mr. Rogers. Right. We would have to put them in. I agree.
    Admiral Harris. So there is a lot there, but I think it is 
worthy of study, and that is kind of where we are now. So we 
are a long way from making a decision either way right now.
    Mr. Rogers. Great. As I read the President's budget, there 
are four Baseline 9 destroyers that we are losing. Were any of 
those going to PACOM, and if so, what is the effect of losing 
those destroyers?
    Admiral Harris. I will be honest with you, I am not 
familiar with that number, but we are getting new Baseline 9 
destroyers in Japan now; we are setting out there in part of 
the overseas homeporting program. So, in the Pacific, I am 
comfortable with where we are with regard to that capability, 
and that is a tremendous capability. I mean, that ties 
together----
    Mr. Rogers. Right.
    Admiral Harris [continuing]. The E-2D and the Aegis system 
for this thing we call cooperative engagement.
    Mr. Rogers. Right.
    Admiral Harris. So I am pleased with that.
    Mr. Rogers. What is the benefit of having an Aegis Ashore 
site in Japan for the U.S. and for Japan?
    Admiral Harris. Sir, I don't know that there is a benefit 
to it. You know, we have--Japan has Patriot batteries, and that 
is--they are very capable. We have the TPY-2 radar systems at 
Shariki and Kasumigaseki, and those are helpful. I think there 
is a study in place to look at whether an Aegis Ashore site has 
utility in Japan, but it is premature for me to make that 
statement now.
    Mr. Rogers. Yeah. My understanding was it would free up our 
Aegis ships in the Asian Pacific. Is that not----
    Admiral Harris. That could be, I mean, certainly.
    Mr. Rogers. Okay. Thank you, Admiral.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I would like to remind my colleagues that my home is next 
door to North Korea, when we talk about distances.
    So, Admiral and General, thank you for your testimony and 
for your service and leadership.
    Mr. Wittman and I were just out in your region a day ago, 
and I appreciated the opportunity to get updates on the 
progress we are making in realigning forces and trying to 
posture our force to respond to the environment in the region. 
One of the things that people become aware of when traveling in 
the region is the tyranny of distance. This is never more 
evident than when it comes to making sure we maintain a forward 
and deployed fleet.
    And, Admiral, you noted the need for more submarines as a 
top priority yesterday. To support this, I believe it is 
critical that we maintain robust ship repair and dry-dock 
capabilities, including at a nuclear capable level, in the 
western Pacific.
    Now, you wrote a letter to the Guam Economic Authority 
stating, and I quote: ``The Navy has consistently stated a 
robust ship repair capability in Guam as a matter of strategic 
importance and remains an operational priority for the Pacific 
Fleet.''
    Do you continue to share this view, Admiral?
    Admiral Harris. I do, Congresswoman.
    Ms. Bordallo. Admiral, in your testimony before the SASC 
[Senate Armed Services Committee] yesterday, the Japan press 
picked up on a 2-year delay in IOC [initial operational 
capability] for the Futenma Replacement Facility, and I believe 
this delay is due to legal challenges after the election of 
Governor Onaga. I just want the people of Guam to be clear 
about whether this delay in Okinawa would impact Guam. And, as 
you know, the 2012 2+2 statement delays progress on Futenma 
from progress on Guam. Moreover, Chairman Wittman noted in his 
recent visit to Guam that we were light years ahead of where 
progress stood several years ago. So I would note that we have 
made great progress. So can you comment on this progress on 
Guam in the coming years and the importance of the investments 
in military construction for Guam in this year's budget? And 
how does that help you as PACOM commander address the changing 
nature of threats in the Asia-Pacific region?
    Admiral Harris. Yes, ma'am. I believe that Guam is a 
strategic bastion for the United States. The capabilities that 
are there and its location demand that we consider it a 
strategic bastion, and so, you know, we have put our fourth SSN 
there, nuclear submarine there, and we have brought in our 
second submarine tender there. So that is very exciting and I 
think the right level of emphasis on our submarine force in the 
western Pacific.
    With regard to Futenma, I will defer to the Marine Corps on 
where they stand on the linkages between the Futenma 
Replacement Facility and the exodus of that group of marines 
from Okinawa to both Guam and Hawaii, but clearly the plan as 
conceived was, you know, we would move marines from Futenma to 
Camp Schwab-Henoko and then subsequently move a group of 
marines, 8,000 or so, from Okinawa to Hawaii and Guam, Guam and 
Hawaii in that order, but whether we are going to link that now 
or not, given that there is a delay in the movement of forces 
from Futenma to Schwab, I will have to defer to the Marine 
Corps on that.
    Ms. Bordallo. I just want to be clear as to whether Guam 
would be affected in----
    Admiral Harris. It would only be affected perhaps in terms 
of timing, but the intent to move marines to Guam remains as 
strong as ever. That intent is there, and the resources we are 
putting into Guam and in the Commonwealth of Northern Marianas, 
that is proceeding apace.
    Ms. Bordallo. Thank you.
    And I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for your service and thank you 
for the great job that you are doing in the Asia-Pacific. As 
Ms. Bordallo said, we had a great trip there.
    Admiral Harris, I want to ask your perspective. As we got 
the laydown on the situation there in the Asia-Pacific, one of 
the things that was really compelling to me was the effort by 
the Chinese in the South China Sea. As you pointed out, their 
efforts there on Woody Island and the Paracels is something 
that is done. There is nothing that we can do to necessarily 
reverse that. The place, though, where I do believe we can have 
an impact is in the Spratly Islands. As you know, over 3,000 
acres of reclamation there, those places are set up 
specifically, I believe, for them to militarize those areas.
    As you spoke in your opening testimony, you talked about 
submarines as one of the elements that you have as a critical 
part of force structure. There is also a suggestion of a second 
aircraft carrier. In looking at what we can do to deter or 
prevent further militarization of the South China Sea, give me 
your perspective on the priority that you would need as far as 
naval assets, and I am asking you submarines versus the second 
aircraft carrier. Give me what your priorities would be in that 
situation.
    Admiral Harris. Thanks, Congressman.
    My priority, given the way you framed the question, is 
clearly submarines. Submarines are the original stealth 
platform. They clearly give us an asymmetric advantage. Our 
asymmetry in terms of warfare, because of submarines, is 
significant. And, you know, in the modernizing sense, we need 
to maintain that asymmetric advantage.
    The second aircraft carrier, you know, I am a combatant 
commander, and I want more, and I want it now, right? The more 
I can get it, the faster I can get it, the happier I am.
    Mr. Wittman. Sure.
    Admiral Harris. But I think there are fiscal, diplomatic, 
and political hurdles--significant ones--to overcome before we 
would put a second carrier strike group in the western Pacific, 
you know, when you talk about an air wing, where would you put 
it, where would you train them, the 10,000 sailors, their 
families, the housing, the schools, the hospitals, the whole 
thing. But there are other things that we could do, in my 
opinion, that would improve our capability in the western 
Pacific and have an effect. We could consider putting another 
SSN [attack] submarine out there. We could put additional 
destroyers forward. We could put maybe the new destroyer, the 
DDG-1000s, move them forward. So there are a lot of things we 
could do short of putting a full carrier strike group in the 
western Pacific.
    Mr. Wittman. Very good. And you believe that is the most 
effective way that we could deter further militarization there 
in the Spratlys?
    Admiral Harris. I think that is a big part of it----
    Mr. Wittman. Good.
    Admiral Harris [continuing]. Yes.
    Mr. Wittman. Very good. Thanks, Admiral Harris.
    General Scaparrotti, I appreciate your time when we were 
there visiting at U.S. Forces-Korea and the great job you are 
doing there.
    One of the questions I wanted to ask is, as you look at 
your needs--and, as you have pointed out, the threat, ISR, a 
critical portion of that to make sure you can look at what 
potentially is happening to the north. Another element, though, 
that is important is, if you do need to act, is to make sure 
that you have not only the information and people, the manning, 
but also the hardware.
    Give me your perspective on where you are right now as far 
as munitions stores and whether they are adequate for what you 
look at as the potential scenarios there with North Korea.
    General Scaparrotti. Thank you, sir, for the question. As 
you know--I will first describe the conflict on the Korean 
Peninsula, because while we have seen provocation, if we went 
to conflict in the Korean Peninsula, given the size of the 
forces and the weaponry involved, this would be more akin to 
the Korean War and World War II: very complex, probably high 
casualty. And because of that, first of all, it is just going 
to be a situation where I want to be ahead of that and be able 
to deter the aggressor. So my need is particularly to have the 
forces, the ballistic missile defense forces, et cetera, so 
that when I pick up the indication and warning, I can establish 
my defense, protect South Korea, our forces, and our population 
there immediately.
    I think I have a good force for doing that today in the 
peninsula, but I also rely on PACOM for immediate forces to 
respond: for example, the air forces stationed in Japan and 
throughout the PACOM theater; ISR to be responsive; the Marine 
force and MEF [Marine Expeditionary Force] to be responsive. 
And we keep a package--``we'' being PACOM commander, his force, 
his subordinate commands, and myself--that we know the 
readiness of those forces on any given day and any given hour 
that I need immediately, and we track those, and that is very 
important to my ability to respond and defend Korea.
    Mr. Wittman. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you.
    General, I have had a request from the recording people, if 
you would make sure the microphone is right in front of your 
face, then it seems to work better. Thank you, sir.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to both witnesses for your leadership and 
your testimony this morning.
    Admiral, on page 5 of your testimony, you pretty much laid 
out what is sort of the guideposts for the sovereignty claims 
issues, which we have discussed this morning with the island 
building, and basically, it says, we encourage all countries to 
uphold international laws reflected in the Law of the Sea 
Convention. Should the United States ratify UNCLOS [United 
Nations Convention on the Law of the Sea], the Law of the Sea 
treaty?
    Admiral Harris. Thanks, sir, for the question. Before I 
answer, I want to just say that I have spent a lot of time 
talking to proponents and opponents of UNCLOS in the last 3 or 
4 months, and I appreciate the time I have spent with those 
experts, and I understand their arguments. And I understand 
those arguments for those folks who are opposed to UNCLOS, but 
I am a proponent of it. And I think, in the 21st century, our 
moral standing is affected by the fact that we are not a 
signatory to UNCLOS. I think there are some economic 
disadvantages as well. We could get into a discussion about the 
Russian stuff in the Arctic and how they are using UNCLOS to 
their advantage, and we are unable to because we are not a 
signatory to it.
    So, you know, I will tell the members of this committee and 
anyone else that for me, personally, my opinion is the United 
States should accede to UNCLOS.
    Mr. Courtney. Thank you. And, again, when we discussed this 
at PACOM earlier, or last fall, that was before the Hague 
Convention ruled against the United States request to be part 
of the--just as an observer on the Philippines claim on the 
Spratly Islands, which Mr. Wittman referred to earlier. I mean, 
it is kind of unbelievable we are allowing sort of litigation 
to proceed that the consequences in terms of military strategy 
and resources of this country in the Asia-Pacific could hinge 
on the outcome of that claim, and we are completely shut out 
because of an unforced error. I mean, we have done this to 
ourselves. And so, you know, thank you for your frankness this 
morning. Myself and Congressman Don Young are going to 
introduce a bipartisan resolution in the House, again, citing 
events in the South China Sea as why we really need to take a 
fresh look at the Law of the Sea treaty. And, as a nation, we 
need to move forward and get in the game in terms of, you know, 
these critical issues, because it is going to determine the 
course of maritime policy and military policy and budgets for 
decades to come. So thank you, again, for that input.
    Earlier you mentioned the fact that we have a shortage of 
submarines in the Asia-Pacific. Again, today, we are operating 
with an attack sub fleet of about 52. Even with the two-a-year 
build rate that we started in 2011, that is going to continue 
to drop to, at this point, based on the shipbuilding plan that 
was submitted last week, to 41. Can you talk about what that 
will do to future commands in terms of the challenges that you 
are already facing with a larger fleet size?
    Admiral Harris. Sure. So PACOM suffers a shortage of 
submarines today. My requirements are not being met, as are not 
the requirements of other COCOMs [combatant commands] as well. 
So we have a submarine force of about 52 attack submarines, and 
all the COCOMs need them for all their reasons. And when you 
add up all their requirements, it exceeds the ability of the 
Navy to provide submarines forward, when you consider a lot of 
those are in maintenance and a lot of other things.
    I worry that we are going to go down to 41, because as we 
go down to the low 40s, China is going to increase their 
submarine force, even as they are today. And then Russia, which 
has the most capable submarine force in the world next to ours, 
they are moving their latest generation SSBNs, the ballistic 
missile submarines, to the Pacific. So the Dolgorukiy-class 
SSBNs got there at the end of last year, and that is just the 
beginning. And then China, meanwhile, has their Jin, J-I-N, 
Jin-class SSBNs that they are bringing online, and we are 
seeing them now.
    I feel that I must be able to keep those submarines at 
risk, and I am able to do so today, but as we go down in 
numbers, then that becomes a concern to me.
    Mr. Courtney. All right. Thank you. And we have actually an 
opportunity on Seapower [Subcommittee] to look at the next 
block contract, because, frankly, there is a dip in that, and 
we should do everything we can to avoid that, because that will 
at least bring the number up somewhat and mitigate, you know, 
what you just described.
    As long as I have 10 seconds left and people are boasting 
about proximity to Asia-Pacific, if an attack submarine leaves 
Groton, Connecticut, and goes under the ice, it can actually 
get there ahead of the folks from Washington State.
    And, with that, I yield back, Mr. Chairman.
    Mr. Larsen. Thank God for Connecticut.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, General Scaparrotti and Admiral Harris, for 
being here--all your entourage--for your commitment to 
protecting us all. We appreciate it. Sometimes you don't get 
told that enough.
    Admiral Harris, I guess I will start out with a really easy 
question: Are you aware of any collusion between Iran and North 
Korea with regards to North Korea's intermittent but ongoing 
nuclear and missile tests?
    Admiral Harris. Sir, I am not aware of collusion directly. 
But we know that there is a relationship between North Korea 
and Iran, but I am not privy to the details of the nuclear 
collusion, if you will.
    Mr. Franks. General Scaparrotti, that is your perspective 
as well?
    General Scaparrotti. That is mine as well, yes, sir.
    Mr. Franks. Admiral, your colleague here, General 
Scaparrotti, called BMD one of USKF's four critical needs and 
is certainly--that is--but given the unpredictable and 
belligerent nature of the North Korean regime combined with 
their steadily increasing ballistic missile technology, how 
important do you believe this layered missile defense system 
that we have is in deterring North Korea?
    And in light of some of the recent events that I think are 
pretty serious, can you describe if you think that there are 
currently enough defense assets in your command to deter or 
defeat a North Korean ballistic missile attack?
    Admiral Harris. Well, first, I will talk about the 
criticality of a layered defense. It is absolutely critical. 
You know, we have 28,000 American troops on the Korean 
Peninsula. We have their families. We have several hundred 
thousand Americans who live and work in South Korea, and the 
North Korean capability is growing. And they threaten not only 
our fellow citizens and our allies in Korea; they threaten 
Japan, they threaten Hawaii, the West Coast in the mainland of 
the United States, and then potentially the East Coast.
    They are on a quest to miniaturize their nuclear weapons 
and the means to deliver them intercontinentally, and they pose 
a very real threat to the United States. So I think the layered 
defense is the only answer to go after the missiles once 
launched. That means THAAD--and I am glad we are engaged in 
consultations with Korea on putting a THAAD battery there--
Patriot, Aegis, the whole thing.
    Mr. Franks. Well, how has the fiscal year 2017 budget 
request, prioritization of modernization, affected your 
commands? I mean, do you currently have the assets you need to 
fight tonight while currently modernizing?
    Admiral Harris. I am pleased with the fiscal year 2017 
budget. I was asked to make comments about it up my chain, and 
my concerns were addressed, and principally those concerns were 
in anti-surface weapons and anti-surface ship missiles and in 
advanced fighter aircraft for the PACOM theater.
    Mr. Franks. All right. I guess, let me put it this way, and 
I will address the question to both of you: If there is 
anything that you feel like that if you had the option that you 
could increase in terms of your capability, meaning particular 
area, what would that be?
    Admiral Harris. In my case, sir, I would ask for more Joint 
Strike Fighters, more fifth-generation aircraft to go after the 
A2/AD [anti-access/area denial] threat that we face in the 
Pacific.
    Mr. Franks. General Scaparrotti.
    General Scaparrotti. Sir, I would say, one, high-altitude 
multi-INT [intelligence] intelligence, surveillance, and 
reconnaissance assets; and I would go back to the ballistic 
missile defense assets: for instance, Patriot. It would be 
ideal to have more Patriot than I have now as opposed to 
relying on the additional Patriot at crisis. But the fact of 
the matter is, is that our missile defense forces are 
stretched. There is great demand around the globe of that for 
similar kinds of threats; THAAD, for instance, same.
    So, you know, if I were to tell you what more could I use 
and we had the budget to do it, I think those would be my top 
two right there.
    Mr. Franks. Well, Mr. Chairman, I am going to do something 
crazy; I am going to yield back my last 18 seconds.
    And thank you, all, very much.
    The Chairman. Chair appreciates that.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you to our witnesses for being here.
    I too just returned from Japan. I was part of a 
congressional delegation that spent 3 days in Tokyo and 2 days 
in Okinawa. And I had spent years there--many years ago, I was 
a high school student there.
    And as I hadn't been back in the interim, I really was 
struck by the tremendous changes in that country but also in 
the relationship we have developed with Japan. Because at the 
time I lived there, it was really not too long after World War 
II, and there was certainly an effort to constrain Japan 
militarily and, yet, to reassure it about its being protected.
    So, as we have moved forward, we are in a very different 
environment. And I appreciate the rationale for it, as things 
have really changed in that part of the--in the Asia-Pacific 
area.
    And, Admiral, you referenced the peace and security 
legislation that Japan just passed that really authorizes it to 
engage in a more expansive way in regional security efforts. 
And one of the questions I had there and posed there was, is 
money following that? As Japan is sort of--as the ties are 
being loosened on what it can do and cannot do militarily, is 
funding following that effort so that they absorb a little more 
of the financial responsibility for protecting that part of the 
world?
    Admiral Harris. Thank you, Congresswoman.
    I believe it is, but I don't know that for a fact. I know 
that the government and the Prime Minister have said that 
funding will follow, that they are going to fund their 
aspirations to improve their military and their capability. But 
I will also add that the primary costs of our U.S. forces in 
Japan are paid for by Japan.
    Ms. Tsongas. Yes. And what is that amount? I know we were 
given a figure over there. Do you know off the top of your 
head?
    Admiral Harris. No, ma'am, but I will find out before the 
closed hearing.
    Ms. Tsongas. I would welcome that.
    Admiral Harris. It is in the hundreds of billions of 
dollars, but I will find that out and get back to you on that.
    [The information was not available at the time of 
printing.]
    Ms. Tsongas. Thank you for that.
    And the other issue that came up too was sort of 
encouraging jointness between Japan's security forces and our 
forces as we are seeking ways to work together. And I am 
wondering how you are thinking that through and encouraging 
that.
    Admiral Harris. And encouraging----
    Ms. Tsongas. Jointness, more joint operations between our 
forces and theirs.
    Admiral Harris. Yeah. So everything we are doing is joint 
these days in the U.S. side. And I think the other countries 
are observing that and learning from that.
    So, last fall, we had an SLS, a senior leader seminar, with 
the Japan Joint Staff, which is their joint headquarters in 
Tokyo. And we went through some of our war planning and some of 
our efforts in that arena. So I think Japan recognizes that 
they need to be more joint within their military than they are, 
and they are working with us closely to improve their 
jointness.
    So I was honored last week to travel to Japan, and I spoke 
at the 10th anniversary of the Japan Joint Staff. And I have 
been associated with Japan, their military, for most of my 
career, and they are far and away further along in jointness 
today than they have been. That is not to say that they don't 
have a ways to go.
    And I think that the jointness between their air force and 
their navy, for example, should be improved, and I think they 
recognize that. They are moving toward a greater amphibious 
capability, and that forces a level of cooperation between 
their ground self-defense force and their maritime self-defense 
force.
    So I am very optimistic about where Japan is going in terms 
of jointness and their ability to work with us in a joint 
manner across our services.
    Ms. Tsongas. And that is what I was getting at, was they 
are working us with as much as they are within the different 
branches of their services.
    Admiral Harris. That is right.
    Ms. Tsongas. Thank you.
    I too will yield back the balance of my time.
    The Chairman. We are on a roll here.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    And thank you both for being here. It is an honor to have 
you before our committee. Certainly, I have spent plenty of 
time in the Pacific as a Navy pilot myself, now serving in the 
Oklahoma Air National Guard.
    General Scaparrotti, I wanted to ask you or actually share 
with you one of my big concerns I have heard from one of my 
constituents. I want to make you aware of a recent Army 
regulation change regarding dining facility use for 
rotationally deployed forces under your command. Effective 
February 15, 2016, the Army declared essential unit messing for 
rotationally deployed soldiers serving in the Pacific. In other 
words, all soldiers deployed temporary duty to Korea must use 
the dining facility, the DFAC.
    This policy will literally take money out of soldiers' 
pockets, hundreds of dollars per month, in two ways: First, the 
Army will charge for meals at the DFAC through automatic 
payroll deductions. That is automatic payroll deductions. These 
deductions will occur whether or not a soldier actually uses 
the DFAC. And, as you are aware, when you do missions in these 
areas, those missions happen during breakfast, happen during 
lunch, and you are not able to use the DFAC. So soldiers will 
have money deducted, even though they are not using the DFAC.
    Second, the Army is also taking away their daily food 
allowance, known as the government meal rate. I have a 
constituent in the 10th Combat Aviation Brigade currently at 
Camp Humphreys. The Army's bureaucratic jiggery-pokery will 
reduce his paycheck over $700 per month through the automatic 
DFAC deduction and stopping meal allowances. I want to repeat 
that: $700 per month. These soldiers are not going to Korea for 
a week or even a month; they are going for 9 months. And so 
when you lose $700 a month, that ends up being a good chunk of 
money.
    In contrast, a soldier at Camp Humphreys, under the 
permanent change of station orders, is apparently exempt from 
the automatic meal deduction. Aviation units, such as the 10th 
CAB [Combat Aviation Brigade], don't plan training or missions 
around the whims of the DFAC, as I have already talked about. 
That is why the food allowance exists in the first place. That 
is why it was there.
    And I would like to show you some pictures here of what is 
going on at the DFAC in Korea. There are a couple of pictures. 
Can we just slide through a few more?
    [The slides referred to were not available at the time of 
printing.]
    Mr. Bridenstine. So these soldiers, they are having their 
money automatically withheld, and then they are being forced to 
wait in an hour line in order to go through the DFAC. Some of 
them can't go through the DFAC at all because of missions. When 
they do go, they are waiting an hour, and that is three times a 
day. That is 3 hours a day where they are being delayed. Again, 
this happens three times a day.
    I just want to get a commitment from you, General, that you 
will do something for our soldiers, who are flying, in many 
cases, high-risk--and these are steady-state missions. This 
isn't like a surprise. This isn't something that just came up. 
These are steady-state missions at the DMZ. And, number one, I 
want to make sure they get their meals. I want to make sure 
that they are not waiting in line for 3 hours three times a 
day. And I want to make sure that they are not having their 
money taken away. Can you commit to me that you will look into 
this?
    General Scaparrotti. Absolutely. And I will come back to 
you personally on it. We have got not only the CAB that you 
mentioned, but, you know, we have other rotational units, 
obviously, as a part of our readiness that rotate regularly on 
9-month rotations. They are probably affected as well.
    [The information was not available at the time of 
printing.]
    Mr. Bridenstine. Okay.
    And, Mr. Chairman, before I yield back, I just want to note 
that I want to introduce legislation to make sure that this is 
taken care of. Thank you.
    I yield back.
    The Chairman. Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman.
    And thank you, Admiral Harris, General Scaparrotti, for 
being here.
    Admiral Harris, again, regarding the Aegis Ashore 
facility--or the hope for a facility--North Korea's nuclear 
test in January underscores the concern that we have, that 
North Korea may develop the ability to place a bomb on a long-
range ballistic missile that could reach the U.S. West Coast. I 
referred to public comments you made that converting the Aegis 
missile defense test site in Hawaii into a combat-ready 
facility is a good idea to help protect the U.S. mainland.
    Since we have assets on Kauai, why not use them? How would 
this permanent land version add to U.S. defense needs? And what 
would it take to integrate the site into a larger U.S. 
ballistic missile defense system?
    Admiral Harris. Thanks, Congressman. Good to see you again.
    I believe that we need to do everything we can to defend 
our Nation, and that is my job in the Pacific. I think the 
Aegis Ashore facility in Kauai is a national treasure, and we 
should use it to the best of our ability. And I think one of 
the ways that we could improve our national ballistic missile 
defense capability is by converting that to a permanent 
facility with interceptors. It seems reasonable to me, but it 
demands further study. It demands a lot of study.
    I think, at the end of the day, we will learn that what it 
will do, it would be able to defend Hawaii, and other systems 
we have would defend the continental United States. But that is 
good. I am good with that. And that is what I have recommended, 
that we begin the study to see if it is feasible and what it 
would take to do it.
    There is not only the technical aspects of the 
architecture, the ballistic missile defense architecture; there 
is a political dynamic, as you well know, and the whole piece 
would increase in footprint in Hawaii and all that. So it is a 
whole effort that needs to be looked at. But I am advocating it 
because I think we need to do it.
    I noted that after I made that statement, that China 
objected, just as they have objected to the consultations we 
have with Korea to put THAAD in Korea. And I find it 
preposterous that China would insert itself in negotiations 
between us and our Korean ally on how best to defend our Korean 
ally and our Americans there, and they would interject 
themselves in our internal discussions of whether we should 
improve our ability to defend our own homeland.
    Mr. Takai. Thank you.
    Actually, just a few days ago, China's Foreign Ministry 
spokeswoman compared the United States military infrastructure 
in Hawaii to China's land reclamation and strategic placement 
of missiles on disputed territory in the South China Seas. Can 
you just tell us your perspective on whether Hawaii should be 
and could be compared to the disputed territory in the South 
China Seas?
    Admiral Harris. Yeah. That statement that the Chinese 
spokesman made almost doesn't merit comment. I mean, it is 
ridiculous, and to me, it is indicative of the spokesperson's 
tone deafness.
    Mr. Takai. I agree.
    In regards to the status of the rebalance, if U.S. defense 
spending remains limited to the cap set forth in the Budget 
Control Act of 2011, as amended, the so-called sequester 
levels, how might this impact the plans for bolstering U.S. 
force posture and presence in the Asia-Pacific region? And what 
might be the implications of maintaining deterrence and for 
operational risk in a potential combat situation?
    Admiral Harris. As I have testified before, certainly at my 
confirmation hearing, that I think that if we return to 
sequester levels for the duration of the law, out to the early 
2020s, it will harm our ability dramatically, our ability to 
defend our Nation. I think all that would be affected. And we 
are going through that now as we look at downsizing the Army, 
and should we do that? Where should those forces come from that 
would be part of the downsizing and everything?
    So I have testified before that I think a continued 
sequester would hurt us significantly in our military 
readiness, and I stand by that.
    Mr. Takai. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    Admiral Harris, let me ask you some questions about the 
littoral combat ship [LCS] program. You have stated that the 
littoral combat ship was a vital capability for you to engage 
through the PACOM area of operation. You note the LCS was 
needed to do missions not suited for DDGs, destroyers. How 
beneficial is having such a capability in your AOR [area of 
responsibility] to patrol waters not easily navigated by larger 
platforms?
    Admiral Harris. Well, thanks for the question, sir. Just by 
definition, I mean, the littoral combat ship is designed to 
operate in shallower waters than our destroyers and cruisers. I 
think in where we are now in phase zero, the LCS is a terrific 
platform to work with our allies and partners in the region.
    I think that there is work, though, that could be done to 
the LCS to make the ``C'' more ``C,'' the combat part of 
littoral combat ship. And I am pleased, through the Senate and 
the House and the Congress writ large, that we are looking at 
doing that. So we are going to, quote-unquote, ``up-gun'' the 
LCS. And I think that is terrific.
    I want our adversaries in the Pacific to think about the 
LCS the way I thought about the Nanuchkas, Osa's, and Tarantuls 
of the Soviet Navy back in those days, back during the Cold 
War. We used to track and be concerned about those little, tiny 
patrol boats that the Soviets had because they were missile-
armed corvettes. And I want the Chinese and the Russians and 
other adversaries we might have to think about the LCS in that 
way. And I think we can think of it in that way if we put the 
right kind of missile on it and up-gun it.
    Mr. Byrne. Of course, that is the plan. As you know, the 
last, I think, 20 ships in the 52-ship buy would be frigates 
that would have the up-gun and the more heavier platform. But I 
guess what I hear you saying is, is that because you have so 
many of them--and it is a cost-effective way to have so many of 
them--that it is another way for us to project our strength in 
a maritime environment, in a shallow-draft environment we find 
in many of those islands.
    Admiral Harris. That is correct. I stated when I was the 
Pacific Fleet commander that I value the LCS. I believe there 
is a place for LCS in the joint force now that I am the PACOM 
commander, and I look forward to working with them as they come 
online.
    Mr. Byrne. You also mentioned how we are able to work with 
other nations and their navies with littoral combat ship. Could 
you expand on that some, please?
    Admiral Harris. Sure. A lot of our friends and partners in 
the region have small navies. And they want to learn from us or 
they want to learn from somebody, and I would rather they learn 
from us than other potential partners. And their navies are 
small. And when a cruiser comes in there or even a DDG for that 
matter, it can overwhelm them. And so an LCS is the right 
platform to do that.
    It is also the right platform to train in areas of 
shallower depths, just by definitions, as I talked about, and 
the cruisers are smaller so that footprint is smaller. And, for 
that reason, I think in a partnership environment way, the LCS 
is, again, an ideal platform.
    Mr. Byrne. Let me ask you about another vessel. It is 
called the joint high-speed vessel [JHSV]. They just renamed it 
the EPF [expeditionary fast transport]. And I understand that 
those vessels are getting some pretty good use in PACOM. This 
is a well-built ship with ability to add a lot of additional 
capabilities. What do you see as the future of the joint high-
speed vessel, the EPF, in your AOR?
    Admiral Harris. I think it has great potential for some of 
the mission sets that I have to be concerned about, more so the 
Pacific Fleet commander would worry about it. But the joint 
high-speed vessel has a great ability to move a lot of things 
quickly. And by ``a lot of things,'' I mean, troops and their 
equipment. And the Army is using a version of that now in the 
western Pacific.
    So I am looking forward to the JHSV EPF coming online in 
greater numbers. I think that you could put an expedition or a 
field hospital, for example, on a JHSV and turn it into a 
hospital ship. We explored that in the last few months in my 
time as Pacific Fleet commander during Pacific Partnership. 
That is an exciting new capability that I think we should take 
a hard look at.
    Mr. Byrne. Well, thank you for your service, gentlemen, 
both of you.
    And I yield back.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service.
    The U.S. PAC [Pacific] Command has given authorization in 
the fiscal year 2016 NDAA's South China Sea initiative to build 
our maritime security in the region and improve the domain 
awareness of our partners in the region. In your opinion, does 
this authority need to be expanded, and if so, what changes 
would you like to see made?
    Admiral Harris. Sir, that is the maritime security 
initiative. I am pleased with where we are with it now. I think 
we will get about $50 million this year for that. My team is 
working with OSD [Office of the Secretary of Defense] on that 
to figure out the best ways to improve the maritime domain 
awareness of some of the countries in the region, and I am 
satisfied with where we are with that this year.
    Mr. Johnson. Thank you.
    General. Anything you would add, General?
    General Scaparrotti. No, sir. Thank you.
    Mr. Johnson. All right. Thank you.
    Admiral, you mentioned in your testimony PAC Command's need 
for enduring cyber capability in the theater. Cyber warfare is 
undoubtedly a growing aspect of modern warfare and something we 
must strive to be ahead of as much as possible. Would making 
USCYBERCOM [U.S. Cyber Command] a combatant command like 
CENTCOM [Central Command] help funnel focus and funding to a 
vitally important aspect of this new theater of warfare?
    Admiral Harris. In my opinion, sir, CYBERCOM should be an 
independent combatant command.
    Mr. Johnson. Would you pull that mike closer.
    Admiral Harris. Yeah. In my opinion, sir, CYBERCOM should 
be an independent combatant command on the level of PACOM or 
CENTCOM, as you say. Currently, it is a sub-unified command 
under USSTRATCOM [U.S. Strategic Command].
    Mr. Johnson. Do you have any thoughts on how Congress can 
be effective in helping bring that about?
    Admiral Harris. No, sir. I think it is being addressed 
adequately within DOD [Department of Defense], and ultimately, 
the Chairman will make his best military advice known to both 
the President and the Secretary and a decision will be 
rendered. And I think that is appropriate in this case at this 
time.
    Mr. Johnson. Thank you.
    General, anything to add?
    General Scaparrotti. No, sir. I agree with Admiral Harris. 
I know it is under discussion now. And I think the DOD, as he 
said, is considering that, and it will be handled in a normal 
process.
    Mr. Johnson. Thank you.
    Admiral, considering Vietnam's claims in the Spratly and 
Paracel Islands and rising patriotism in Vietnam, and animosity 
towards China resulting from the 2014 oil rig standoff, and 
Hanoi becoming the eighth largest arms importer from 2011 to 
2015, a maritime dispute between China and Vietnam in the South 
China Sea has perhaps the greatest possibility for becoming a 
flash point in the region.
    However, in recent public discussions on the issue of the 
South China Sea, it has been surprising to understand the 
dearth of information on our engagement with Vietnam. Most of 
the focus has been instead on our defense treaty with the 
Philippines and their arbitration case. Moving forward, do you 
see a place for increased bilateral dialogue between the U.S. 
and Vietnam, and if so, what developments would you like to 
see?
    Admiral Harris. So I have made Vietnam and India focuses--
foci--focuses, I guess, of effort for PACOM. I think there are 
great opportunities in both countries for us to move forward in 
our relationship and partnerships in the region. So I am 
excited by our opportunities in Vietnam just for the reasons 
you mentioned. You know, they are a growing nation. They have a 
like view with us of China and our concerns in the South China 
Sea. And they are becoming a player on the world stage, and 
they are certainly a player in ASEAN [Association of Southeast 
Asian Nations].
    So I look forward to continuing our relationship with 
Vietnam. I appreciate the fact we are able to increase our 
trade with Vietnam, including in the defense arena. I went to 
Vietnam when I was a Pacific Fleet commander, and I look 
forward to having the opportunity to go there as a Pacific 
Command commander.
    Mr. Johnson. All right. Thank you.
    Anything to add, General?
    General Scaparrotti. No, thank you. Thank you, sir.
    Mr. Johnson. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    General Scaparrotti, you said earlier that should we have 
to be involved--God forbid--in military conflict on the 
peninsula, it would be more akin to Korea or World War II: 
complex, high casualty. Are you concerned at all--we have 
heard, you know, the service chiefs come before us in the last 
year, sequestration, the impact, and us being in 15 years of a 
counterinsurgency mindset has had a real impact on the 
readiness of units. The squadron I commanded was ready to head 
over there on 24 hours' notice, but a lot of the readiness has 
really been degraded across the joint force that are on a TPFDD 
[time-phased force and deployment data] ready to go for 
supporting that kind of contingency. Are you concerned at all 
about the real readiness levels of being able to respond 
quickly?
    General Scaparrotti. Yes, ma'am. Thank you. Yes, I am. As 
you know, all of our services are really coming out of a 
bathtub in readiness, and it has been improving because of the 
increased funding. And we appreciate that support, but it is 
going to be some time before our forces are at a point where 
all of the units have now been through training that prepares 
them really for a complex environment, high-intensity conflict.
    I can speak specifically of the Army. It takes time for us 
to get units through those complex rotations at our national 
training centers. We have got younger generations who haven't 
combined fires, for instance, et cetera, fire and maneuver in 
large formations. Those are things that an individual, small 
unit, and larger unit training that is complex.
    So I am concerned about it. I know that all the services 
are focused on this, and we, on the peninsula, are as well. So, 
when we do our exercises and we bring units in, that is the 
kind of training at each level that we are focused on.
    Ms. McSally. Great. I am interested in following up a 
little bit more in the classified session as well as far as the 
risks we are at right now.
    General Scaparrotti. Thank you.
    Ms. McSally. I think I also heard you say in the shortage 
of munitions that you mentioned that the potential cluster 
munition ban and the impact that that would have on your 
ability to do your job. I just want to make sure I understood 
that.
    Neither the U.S. nor South Korea are signatories to the 
cluster munition ban, so can you just clarify what you meant? 
And if we were to become a signatory and those would be banned, 
what impact would that have on munition?
    General Scaparrotti. That is correct, neither signatories. 
However, the U.S. has a policy that in 2019, in January of 
2019, we would essentially comply with the Oslo treaty through 
policy.
    Ms. McSally. So what impact would that have?
    General Scaparrotti. The impact for me would be significant 
because the majority of my munitions are cluster munitions that 
are affected by that policy. And, of course, then what I am 
concerned about and the reason I am bringing it up now is we 
need to begin to replace those munitions so that I have the 
proper stockage for the first 30 days on site.
    Cluster munitions in and of themselves provide an effect 
that in this fight is very important, is very difficult to 
replicate with unitary rounds. So we need to get to a cluster 
munition. We need to keep this cluster munition until such time 
that we are able to produce a replacement that meets the less 
than 1 percent dud rate and we can produce it in numbers to 
meet my need.
    Ms. McSally. But just to clarify, it would be best for the 
military mission that you have for that ban to not go into 
effect?
    General Scaparrotti. That is correct. That is what I mean 
by we need to keep what we have and be able to use it until we 
can replace it properly.
    Ms. McSally. Thank you.
    Admiral Harris, I want to talk a little bit about the ISIS 
[Islamic State in Iraq and Syria] threat and how you are seeing 
that in the whole theater. I am on Homeland Security as well. 
You know, looking at the foreign fighter flow, we know there is 
at least a couple thousand coming from your theater--China, 
Indonesia, some from Australia--that we are aware of; also, 
about a half a dozen affiliates that have allegiance to ISIS; 
and obviously, the Jakarta bombing that ISIS claimed in 
January.
    Can you just talk about the trends you are seeing? And is 
there any concern with us or our allies in the direction this 
is going?
    Admiral Harris. Yes, ma'am. It is a significant concern of 
mine, the numbers of fighters that are leaving PACOM countries 
and going to the fight. Of greater concern are those, however, 
that are returning because not only are they even more 
radicalized; now they are militarized, weaponized, and so that 
is a concern.
    I am concerned by some of the trends I am seeing in the 
region. In one of the countries, recently, there was a Pew 
survey where over 50 percent of the respondents said it was 
okay to execute a Muslim who converted to some other religion; 
30 percent of the respondents in that country said it was okay 
to use violence in the name of Islam. That sounds like 
something coming right out of the pages of the ISIS handbook. 
So I worry about that quite a bit.
    I made the comment in the past that there are more Muslims 
in the PACOM region than in Central Command.
    Ms. McSally. Exactly.
    Admiral Harris. And so Islamic extremism is an area of 
concern, as I mentioned in my opening statement, and we look at 
that very closely. And fortunately, Special Operations Command 
Pacific, SOCPAC, is there, and Admiral Kilrain is charged with 
monitoring that and having an effect on that.
    Ms. McSally. Great. Thanks. My time is expired. Thanks.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Admiral Harris and General Scaparrotti, thank you very much 
for your testimony today and your service to our Nation.
    For years now, we have underinvested in our EW [electronic 
warfare] capabilities, where our adversaries have actually 
invested heavily in those areas. Now, some of this you may not 
be able to go into an open session, but to the degree that you 
can, where are we held risk because of that underinvestment as 
we are shifting to the Asia-Pacific region? And how overmatched 
are we? And what areas do we further need to invest? And where 
are our adversaries' capabilities strongest? What keeps you 
awake at night should conflict ever break out and we need to 
confront this?
    Admiral Harris. Thanks, sir.
    In trying to dance on the unclassified side of this 
question, I will say that I am concerned about principally in 
the EW environment with Russia and China. They are our peer 
competitors in this. I think we are investing now more than we 
have been in electronic warfare, and our new concept electronic 
warfare maneuver, I think, is gaining a foothold in the Navy 
and in the joint force.
    So I am pleased with where we are moving along, though I 
think that we need to invest more in it, not only in terms of 
fiscal resources but also in terms of tactical development.
    Mr. Langevin. General, do you want to add anything?
    General Scaparrotti. Yeah, I would agree. I think that our 
investment in that has been periodic, and as a result, we have 
seen the need, started to respond to it, and then probably 
dropped off over time, I think, specifically over the last 10 
years. And we are now beginning to invest in that in terms of 
our people, our skills, and our assets, and I think we need to 
continue that.
    Mr. Langevin. Admiral Harris, in your testimony, you 
highlighted that the world's 300 foreign submarines, 200 are 
located in the Indo-Asia-Pacific region, and 150 of those 
belong to China, North Korea, and Russia. How is the United 
States keeping pace with this growing force in the region, and 
what investments need to be made to enhance our undersea and 
antisubmarine warfare capabilities as well as to our anti-
access and area denial strategies?
    Admiral Harris. So one of the biggest asymmetric advantages 
that the United States enjoys over any peer competitor or other 
competitor in the world is our undersea warfare capability. The 
submarine gives us an advantage over any other adversary we 
might face. Unfortunately, those adversaries recognize that, 
and they are improving and increasing their own antisubmarine 
warfare and undersea warfare capabilities.
    Clearly, while our submarines are far and away better, in 
my opinion, today, quantity has a quality all its own, and the 
numbers of Russian and Chinese submarines, particularly Chinese 
submarines, are a matter of concern. I think the Russian 
submarine force never took a hiatus at the end of the Cold War, 
and we are seeing some very impressive platforms come out of 
Russia, including the Dolgorukiy, as I mentioned earlier, the 
SSBN.
    So I think that we must continue to invest in our undersea 
warfare capabilities, not only in terms of numbers of 
submarines but in improving the submarines that we have. I 
think the Virginia Payload Module, for example, is fantastic. 
We can't get enough of them and the capabilities that it brings 
to the fight.
    Mr. Langevin. Good. Thank you.
    I would like to shift, if I could, to cyber. And I have a 
pretty good understanding of our cyber capabilities. But, 
again, as we are shifting to the Asia-Pacific and we are going 
to be partnering more closely with our allies in the region, 
where is your level of confidence in their cyber capabilities 
should we need to partner with them and should conflict break 
out?
    I know the challenges that we face in securing our own 
systems, but to the degree that we are going to be dependent on 
our allies in the region and their cyber capabilities, which 
may be not as robust as what ours are.
    Admiral Harris. Thank you, sir. I will defer to General 
Scaparrotti for the specifics of your question with regard to 
Korea. He has some ideas on that.
    But, in general, I am concerned about it. As we work on 
this with our allies, friends, and partners, we are as strong 
as only the weakest link in the chain, and cyber could be that 
weak link. And so their vulnerability to intrusion and 
exploitation is a matter of concern to me.
    General Scaparrotti. Sir, I would echo Admiral Harris' 
point with respect to Korea as well. We have a good working 
relationship in terms of our two joint cyber centers and our 
cyber domain work overall, but it is initial. It is new, and it 
is developing, and it needs to develop rapidly, because we have 
a threat. North Korea is active every day. And so my concern is 
that we act with enough focus and we act fast enough and with 
enough assets.
    The second thing I would say, when you are into that 
domain, each country has their own concerns about protection of 
information and capabilities, and so it is an area that is very 
difficult to work in a collaborative way that you need to at 
times as well. And that is something that we have got and other 
nations have to work their way through in order to really close 
the gaps that we have got to close in our systems.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Gentlemen, welcome. Aloha. I am not going to harp on this, 
but I will mention it quickly. I know it has been talked 
earlier about the Aegis Ashore on Kauai and just the paramount 
importance of protecting Hawaii and the United States from 
North Korea's threat.
    But, Admiral Harris, I would like to talk to you a little 
bit about India. I know you have a trip very soon to go and 
visit India. Two things: there is a potential sale of eight F-
16s to Pakistan that I and other Members of Congress have 
expressed very serious concerns about, given the fact that 
Pakistan has long harbored and given safe haven to various 
terrorist groups that continue to launch destabilizing attacks 
within India as well as Afghanistan; the recent release of 
Hafiz Saeed, one of the masterminds of the 2008 Mumbai 
terrorist attack, where six U.S. citizens were killed, even at 
the protests of the United States.
    There are a number of other concerns that we have. But, in 
particular, I am wondering if you can talk about how, as you 
and others have spoken of the importance of this opportunity to 
strengthen our relationship with India as we head into a strong 
partnership into the future and the benefits that that brings 
us, what impact could this sale of F-16s have on our 
relationship with India and the work that you and others are 
doing to strengthen that?
    Admiral Harris. That is a great question and timely too, 
ma'am, because I go to India on Monday to keynote the Raisina 
Dialogue event in New Delhi.
    I view India as our great strategic opportunity in PACOM, 
and we need to do as much as we can with India in a mil-to-mil 
sense and in every other sense. We have a terrific ambassador 
there in Richard Verma, who is looking aggressively at ways to 
improve our relationships with India across the board. And I am 
excited by that.
    With regard to the sale of F-16s to Pakistan, while I don't 
have a professional opinion on that sale itself, certainly it 
will affect some aspect of our relationship with India. I know 
that I will be asked about it when I go to India, and I hope to 
be able to tell them that that sale is just one aspect of many 
military sales we make across the world, and that we view our 
relationship with India very importantly. And I hope that we 
can work through this sale and their perception of it to 
continue to improve our relationship with India.
    Ms. Gabbard. Yeah, thank you. I think this is something 
that they will definitely be bringing up with you at that 
dialogue, in particular because of the recent attack at their 
air force base and the terrorist organization behind that being 
from Pakistan.
    What do you see here really as the next critical step 
towards strengthening that U.S.-India partnership?
    Admiral Harris. So we are moving out aggressively in the 
technical field with the DTTI [Defense Technology and Trade 
Initiative] initiative that Under Secretary Kendall is pushing. 
And I think that is excellent. There are some what we call 
foundational agreements that have to be executed with partner 
nations in order to move, quote-unquote, to the next level. And 
we are working with India on the signing of those foundational 
agreements.
    One of those is the LSA, Logistics Support Agreement, which 
allows us to do acquisition cross-servicing, for example. 
Another one is called the CISMOA [Communications and 
Information Security Memorandum of Agreement], and it involves 
communications security so that we can be assured that India 
will protect our communications as we would protect theirs. And 
so these are foundation agreements that we enact with every 
country we work with.
    We have not gotten to the point of signing them with India, 
but I think we are close. We are closer now than we ever have 
been. And I am encouraged by what I am hearing from my 
colleagues in India, and I look forward to having that 
discussion with them when I go there next week.
    Ms. Gabbard. Great.
    Thank you, Admiral Harris. I appreciate the leadership that 
you have taken, in particular on strengthening this 
relationship and recognizing the importance of it in our 
overall strategy within the Asia-Pacific. Thank you.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Admiral, I would like to ask you to discuss and provide 
some guidance for me and others on how to approach the issue of 
cost sharing for our obligations and the benefits that we 
provide in the Pacific.
    The easy way for me to look at it when it comes to Europe 
is through the 27 other NATO members who have a target of 
spending at least 2 percent of GDP on defense, even though only 
4 of them today are doing that. But it is something that I can 
ask of our allies who enjoy the benefit of the U.S. 
disproportionate presence there and defense capacity.
    How should I look at that when it comes to Asia and the 
Pacific?
    Admiral Harris. A great question, sir. And I think that the 
NATO model, as I mentioned before, doesn't work for the 
Pacific. So you have to look at each of our treaty allies 
individually and look at those--that subset of treaty allies 
where we have major concentrations of U.S. forces. And who is 
the greater beneficiary of that, or who are the beneficiaries 
of that?
    Certainly, part of the beneficiary of us having a large 
carrier strike group bring expeditionary force presence in 
Japan is us. We are there for us and the values that we hold 
dear and what is important to the United States. Certainly, it 
is a benefit to Japan. And so our obligation to Japan under our 
treaty is to defend them and their obligation to us under that 
same treaty is to provide us a place from which we can defend 
them. So that is simplistic, but that sort of gets at that 
issue.
    So they provide us an enormous host nation funding level--
which I promised I would get to you in the closed session--to 
foot the bill, if you will, for U.S. forces that are based in 
Japan. And that model extends to Australia, for example. We are 
undergoing host nation funding discussions with Australia now 
as we move a sizable Marine and Air Force presence to Darwin 
and Tindal. And the level of that funding and how much it 
should be is a subject of negotiation. We certainly get a 
benefit from operating out of Australia, as do the Australians.
    Singapore is another case, a very important case. Singapore 
is not a treaty ally, but it is certainly an important 
strategic partner to us. And they allow us to put our littoral 
combat ships, to rotationally deploy them out of their nation, 
and they have agreed to allow us to operate rotationally P-3s 
and P-8 surveillance and reconnaissance aircraft. And we get 
that benefit from operating out of Singapore because of our 
interests in the South China Sea, Strait of Malacca, and the 
eastern Indian Ocean.
    Mr. O'Rourke. Yeah. All of that makes sense, and I think 
that same logic could extend to our presence in Europe, and yet 
there we have a very defined commitment from our allies there. 
As you outline some of the challenges that we face, a rising 
China, a resurgent Russia, just to name two, and some of the 
investments that you are going to ask or the Department of 
Defense and the administration will ask the taxpayer to make, 
all of which I think are sound, I think it is also an 
appropriate time to think about what our allies and other 
beneficiaries in the Asia-Pacific region should expect to 
contribute. And we, the taxpayer, the Representatives should 
have a clear understanding of that.
    And I don't know if, General Scaparrotti, if you want to 
talk about Korea as an example with the THAAD batteries and 
Patriot missile battery deployments there, use that as an 
example. What part of that cost is shared by--understand the 
benefit to us of having our service members and those defenses 
there. What does Korea share in that in terms of cost?
    General Scaparrotti. I would just say that this is a unique 
alliance with the U.S.-ROK Alliance, and it has started and has 
grown since the Korean War. And in this case, we have got a 
treaty partner and a partner that spends 2.5 percent pretty 
routinely each year in their defense. And they spend portions 
of their defense money to meet commitments that we have agreed 
upon mutually that they need to develop in order to strengthen 
the alliance. And in the closed session, we can talk 
specifically about that.
    Secondly, through negotiations, they also--called a special 
measures agreement--they annually pay a certain percentage of 
the cost of U.S. forces to be stationed in Korea and assist in 
their defense. So I think it is a good construct. They are 
great partners in this respect. And they have been true to 
the--they have the same funding challenges that we have, but 
they have been true to meeting their commitments in that 
respect.
    Mr. O'Rourke. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Admiral Harris, it is good to see you here again.
    My question is actually for General Scaparrotti. It has to 
do with the Army's ARI [Aviation Restructure Initiative] and 
how that is going to affect the combat aviation brigades in 
Korea. In Korea, the Army will be relying on rotational forces 
if this ARI is complete, as opposed to a CAB that is stationed 
there.
    The National Commission on the Future of the Army 
recommended keeping a CAB permanently assigned to the 
peninsula, because short-term rotations--and I am quoting--
``short-term rotations will not permit aviation units the time 
needed to properly mitigate risks posed by the threat situation 
in Korea, and, specifically, rotating units will not have time 
to master the geographic and environmental conditions well 
enough to operate effectively and safely in the region.''
    Obviously, Korea is a country with numerous terrain and 
extreme weather conditions. Our aviation crews will have to be 
able to operate in all sorts of environments, and they are, but 
a permanently assigned unit there will be better able to handle 
and maintain proficiency.
    Permanently stationing a CAB in Korea would come with a 
significant upfront price tag as well as enduring costs. So, 
despite the operational concerns, the fiscal reality is that it 
just might not be realistic. Your written testimony lays out an 
array of complex threats that we face on the peninsula. So I 
think that, despite the cost, it is worth discussing.
    As a commander, which force structure--a rotational force 
or a permanently stationed combat aviation brigade--do you feel 
best enables you to meet the threats and operational needs in 
the peninsula?
    General Scaparrotti. Thank you for the question.
    We have a permanently stationed combat aviation brigade 
there now, and there is discussion about perhaps going to a 
rotational one. I completely agree with the commission in terms 
of this is an environment that is difficult to fly in, 
mountainous, weather. It is an environment that they also have 
to fly in close proximity to an adversary that will shoot at 
them.
    Ms. Duckworth. Right.
    General Scaparrotti. And, third, we have mission sets there 
that are joint in nature. We do a lot of work with our air and 
our naval forces off the coast. And as a result of that, it is 
very difficult to get pilots to that level of proficiency, come 
into the peninsula, and, in a 9-month rotation, be able to 
sustain that, because some of that simply has to be done on the 
peninsula after they arrive.
    And because of that, I have said that I do not agree with a 
rotational force in Korea. I think it will produce a less-ready 
force, and also, it will be more dangerous for our crews.
    Ms. Duckworth. Thank you.
    Do you think politically--well, for our allied militaries, 
do you think a rotational force will signal to the ROK a 
decrease in U.S. commitment to the region's defenses? Is there 
a perception on their side that switching to rotational force 
would give them?
    General Scaparrotti. Well, I think the key to this is what 
force you do rotate and their readiness when they arrive. For 
instance, I agree with the forces that we rotate today. We are 
now rotating an armored brigade, for instance, and the ROKs are 
fully in support of this. But our commitment is that we deliver 
one that is combat-ready, fully manned, and also has been 
trained culturally for that environment. That is something that 
we have to do.
    And I think as long as--I know for the Republic of Korea--
as long as we meet that commitment, they will be supportive of 
using a rotational force. Now, I think there is a certain base 
that we have there that is permanent, and we have got to 
maintain that. You couldn't go to a larger percentage of that 
rotational force. I personally wouldn't be in support of that. 
But for the specific needs that we have today that we have 
asked for a rotational force, it has been productive.
    Ms. Duckworth. Okay. Great. Thank you.
    I want to transfer onto whether or not the Korean wartime 
operational control transfer is ever going to really happen. 
You know, we have pushed this off. Do you think they will ever 
be ready? Are there conditions that need to be in place, 
metrics that we are looking for?
    General Scaparrotti. First, yes, they will be ready. They 
are a modern force, and they are working hard to, one, improve 
their capabilities but also build the capabilities they need. 
In the OPCON [operational control] transition plan that was--
again, another step was taken that in October between the two 
Secretaries, we have laid out in detail the capabilities that 
they have to meet, and we are now working on the next layer of 
that that provides the timelines on each of those capabilities.
    Generally, we have agreed on those in the past. We are 
confirming those this year, and they are already working on 
most of those as well. So, yes, I think there will be an OPCON 
transition. I, too, believe that it should be conditional, not 
time based. And in the closed session, I can talk in a little 
more detail on the commitments that we have mutually made to 
ensure that we can bring that about.
    Ms. Duckworth. Thank you. I look forward to that classified 
briefing.
    The Chairman. Admiral, Mr. O'Rourke made a passing 
reference to Russia. We see increasing Russia in Europe, in the 
Middle East. Are you seeing that in the behavior of their ships 
and planes and so forth?
    Admiral Harris. I am, Mr. Chairman. We are seeing in the 
Pacific, as I mentioned before, their new Dolgorukiy-class 
SSBN. I remind folks that there are 3,000 miles of Russian 
coastline that is in my area of responsibility, including six 
major strategic bases from which they deploy their submarines, 
their ships, and their long-range bomber aircraft.
    We are seeing long-range bomber aircraft patrols increasing 
in East Asia. They circumvented Japan just recently. And their 
ship task forces are operating in the region as well.
    The Chairman. We often don't think of Russia in your 
theater, but as you just described it, they have a big presence 
there.
    Admiral Harris. Yes, sir. I think of them often.
    The Chairman. I appreciate the fact that you do.
    I recently had someone say that they were meeting with a 
Chinese official who said explicitly: You are the past; we are 
the future.
    I think many of us had not expected the degree of 
aggression, provocation just within the past few years that we 
see from China. Do you believe that that is their attitude, and 
do you have a reason why we are seeing it seemingly sped up, 
certainly in their activities in the South China Sea?
    Admiral Harris. Mr. Chairman, I do believe that that is 
their attitude. As I testified yesterday, I think they are on--
they have a goal of certainly regional hegemony, and they would 
like to see the United States out of what they consider their 
affairs.
    But I think that their provocations are causing the other 
countries in the region to look hard at their relationships 
with China, and they are turning to the United States as their 
security partner of choice. And you have to ask yourself why 
these countries, who were formally leaders in the Non-Aligned 
Movement, for example, are turning away from China and turning 
toward the United States, not only giving us access to their 
bases for our ability to operate but increasingly in terms of 
trade and military interoperability.
    So I think that the statement from China that, quote, ``We 
are the future, and you are the past,'' unquote, I think that 
is another indication of the tone deafness of the spokesman who 
made that comment.
    The Chairman. Fair point. The key for us then is to be a 
reliable, credible partner for these nations who are turning to 
us, and that gets back to the responsibilities of this 
committee, in part.
    Thank you both for being here and testifying. I think, if 
it is okay with you all's schedule, what I would like to do is 
just within about 5 minutes or so reconvene upstairs in our 
SCIF, 2337, and continue on a classified or have a classified 
discussion.
    But, for now, this hearing stands adjourned.
    [Whereupon, at 12:02 p.m., the committee proceeded to 
classified session.]

     
=======================================================================



 
                            A P P E N D I X

                           February 24, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 24, 2016

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 24, 2016

=======================================================================

      

                    QUESTION SUBMITTED BY MR. WILSON

    Mr. Wilson. North Korea is seen as a technologically backward 
nation, and yet there is a growing presence of computers and other 
digital media devices that serve as a widow to the outside world. Do 
you see a way this be used to increase their awareness about the 
outside world, and help to break the information blockade their 
government tries to impose on them?
    General Scaparrotti. As a result of increased electronic media in 
North Korea--including cell phones that number in the millions--outside 
information is indeed much more prevalent than in the past. Strong 
ideological campaigns backed by Kim Jong Un's documented and aggressive 
use of corporal and capital punishment, however, have limited the 
impacts of this outside information on North Korean society and 
leadership. Computers, in particular, are overwhelmingly tied to a 
nation-wide ``intra-net'' and cannot access the world wide web--only a 
few computers in select organizations have internet access. We do 
believe the North's leadership is concerned and sensitive to the type 
of information its citizens are receiving. It is indeed a regime 
vulnerability, albeit one Pyongyang has successfully controlled to 
date. Increased efforts targeting this vulnerability would add 
additional stress to the regime.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. SHUSTER
    Mr. Shuster. You stated in the hearing that you would rely on two 
more battalions of Patriot if we ``go to crisis'' on the Korean 
peninsula. Do you believe the overall inventories of Patriot missiles 
and total number of Patriot battalions are sufficient to be able to 
deliver this capability?
    General Scaparrotti. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. CASTRO
    Mr. Castro. You mentioned in your written testimony that the U.S. 
relationship with Japan is a cornerstone of regional stability. Can you 
speak to how we can further leverage our relationship with Japan to 
maintain peace and security in the region?
    Admiral Harris. We further leverage our relationship with Japan to 
maintain peace and security through continued cooperation and support 
as they implement their national security strategy and legislative 
changes in the newly passed Peace and Security Legislation.
    Japan's 2013 National Security strategy, their first-ever published 
strategy, emphasizes the need to make ``proactive contributions to 
peace.''
    We welcome this approach by the Japanese and are cooperating with 
them to help them identify their priorities and coordinate with USPACOM 
and other partners (e.g. Australia) to complement our Theater Campaign 
Strategy.
    For example, Japan is embarking on a program to ``build partner 
capacity,'' especially maritime domain awareness capability and 
capacity for partners such as the Philippines, Vietnam, Indonesia, and 
Malaysia. Those efforts by Japan are complementary to our own efforts 
to help our partners manage their own security environment, and we are 
using venues such as security assistance synchronization/coordination 
fora to work together to maximize the benefits to countries like the 
Philippines.
    Japan is very early in its process of executing its new strategy 
and building partner capacities. Our coordination and synchronization 
with them on this new strategy are also in the early stages, but Japan 
is making progress and we are learning how to work together to maintain 
peace and security in the region.
    USPACOM will continue to encourage and support Japan in the conduct 
of presence operations throughout the region and, hopefully, we will 
see Japanese freedom of navigation operations in the future. As Japan 
looks to become more active in the theater, the regular presence of 
Japanese ships, aircraft and personnel operating in accordance with 
international law supports and reinforces our own messages about 
adherence to international norms, law and standards of behavior.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Please describe the importance of space capabilities, 
such as communications, missile warning, and reconnaissance is to your 
mission. Related, to what extent are you concerned with our posture to 
adequately respond to the growing Chinese counterspace threats?
    Admiral Harris. USPACOM relies heavily on space-based capabilities 
to conduct joint functions necessary in the execution of our OPLANs. 
Commanders at all levels rely on satellite communications (SATCOM) to 
command and control their forces and conduct Intelligence, 
Surveillance, and Reconnaissance (ISR) across the range of military 
operations. The USPACOM area of responsibility spans over half the 
globe and available SATCOM is a high-demand, low-density resource. 
Space-based intelligence, surveillance and reconnaissance (ISR) 
capabilities provide crucial intelligence data support to provide 
warning and enable targeting, force deployment and defense. Space-based 
positioning, navigation and timing (PNT), primarily from global 
positioning system (GPS), is fundamental to the maneuvering of forces 
and is a critical enabler for search and rescue efforts during 
peacetime and conflict. Finally, timely missile warning is essential to 
support active and passive defense of U.S., allied and civilian 
infrastructure and personnel.
    As the shared domain of space continues to grow increasingly 
congested and contested, adversaries continue to develop means to 
curtail our access to space-enabled capabilities. I have significant 
concerns regarding China's continuing development and fielding of 
lethal and non-lethal counter-space systems, as these systems can 
threaten my ability to achieve OPLAN objectives. USPACOM requires 
resilient space capabilities to support operations. Resilience is 
achieved through careful consideration of the existing and required 
space, ground, and terminal segments of space systems to maximize 
flexibility and minimize vulnerability. As these threats continue to 
mature, the U.S., in coordination with our allies and partners, must 
develop and implement both material and non-material solutions to 
mitigate these threats.
    Mr. Coffman. According to public reports, at a recent parade in 
North Korea, four missiles on KN-08 launchers were noticeably different 
than earlier missiles shown. Why? Are these the same missiles as 
previously seen or did we see in a new variant of these missiles in 
October?
    Admiral Harris. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. What additional resources do you need to dominate the 
cyber-battlefield? And, how would the creation of a Cyber Command 
enhance your ability to oppose technologically advanced adversaries?
    Admiral Harris. To dominate the cyber-battlefield, USPACOM requires 
growth in the areas of cyber personnel, training, and tools. USPACOM 
requires additional personnel capable of conducting cyberspace 
operations planning and to effectively command and control the cyber 
mission forces operating in the Pacific theater. These personnel and 
the collective DOD cyberspace professionals require additional training 
in cyber intelligence, operations, and planning to better react to 
rapidly evolving cyberspace threats. Lastly, USPACOM requires 
additional tools such as a common operational picture capable of 
providing situational awareness for all three cyberspace lines of 
operation: DOD Information Network Operations, Defensive Cyberspace 
Operations, and Offensive Cyberspace Operations within the USPACOM area 
of responsibility. These tools would enhance my ability to create 
effects within cyberspace to counter the constant advancement of our 
adversaries' cyberspace capabilities.
    I support the establishment of US Cyber Command as an independent 
combatant command. I believe this will enhance unity of effort within 
the department and accelerate the coordination and execution of global 
cyberspace operations.
    Mr. Scott. In the wake of the nuclear test, what was the change in 
military relations between the United States and our South Korean 
partners?
    General Scaparrotti. In short, the adversities we have faced since 
last August, to include the nuclear test, have revealed the strength of 
our U.S.-Republic of Korea (ROK) Alliance and made the Alliance 
stronger. Our military relations with the Republic of Korea (ROK) 
remain robust and agile as we coordinate in assessing the situation, 
consider Alliance options, close divergences through candid discussion, 
and as nations, support each other's national interests. Through these 
efforts, we have toughened our resolve to deter North Korea and improve 
our interoperable capabilities through combined actions that illustrate 
our Alliance strength. Extending beyond these actions, we continue to 
hold regular bilateral consultations at multiple levels, to include 
participation from other U.S. and ROK agencies, which further displays 
our combined dedication to deterring the threat and defending the 
Korean Peninsula.
    Mr. Scott. What are the current gaps in your in-theatre 
intelligence, surveillance, and reconnaissance (ISR) capabilities with 
regard to North Korea? How does the Joint Surveillance and Target 
Attack Radar System (JSTARS) platform integrate into the current ISR 
network?
    General Scaparrotti. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. TAKAI
    Mr. Takai. Building Partner Capacity: What is the United States 
doing to build up the naval power and MLE capabilities of Southeast 
Asian countries? Please provide specific examples.
    Admiral Harris. Using Fiscal Year 2016 National Defense 
Authorization Act, Section 1263, ``South China Sea Initiative'' 
authority, the United States Department of Defense is planning to spend 
approximately $50 million this year to develop the naval and maritime 
law enforcement capabilities of the Philippines, Vietnam, Malaysia, 
Indonesia, Thailand, Singapore, and Brunei by investing in systems and 
training for those nations' navies and certain maritime law enforcement 
agencies. Congressional notification of specific capabilities is 
planned for March 2016 in accordance with U.S. law.
    USPACOM has also made a number of investments in maritime security 
and maritime law enforcement in the Southeast Asia region using the DOD 
Counternarcotics Program. Specifically, there are three countries where 
USPACOM has ongoing efforts. First, in the Philippines, USPACOM has a 
long-running program in the Sulu Sea area to enhance the capability of 
the Philippine National Police Maritime Group. USPACOM provided 
extensive training and infrastructure development to expand the 
effectiveness of this element in policing the Sulu Sea area. In 
Cambodia, we have a multi-year effort underway with their National 
Committee for Maritime Security based in Sihanoukville, to expand their 
operational capability. Lastly, in Vietnam, USPACOM is in the beginning 
stages of program development with the Vietnam Border Guards to enhance 
their capabilities to combat illegal entry, transnational crime, 
smuggling and trade fraud.
    Mr. Takai. Please describe the strategic and military/operational 
implications of China's deployment of surface-to-air missiles (SAMs) on 
Woody Island, in the disputed Paracel Island group. Do you expect 
similar deployments of SAMs, anti-ship cruise missiles, or other 
similar equipment to disputed islands in the Spratlys? What would be 
the strategic and military/operational implications of such deployments 
for the United States? What is your assessment of the potential 
military and law-enforcement utility of these newly expanded sites, 
both for China's asserting and defending its territorial claims in the 
South China Sea, and in potential conflict scenarios against U.S. 
forces?
    Admiral Harris. [The information referred to is classified and 
retained in the committee files.]
    Mr. Takai. What is your assessment of China's ability to use hybrid 
warfare tactics to gain control of small islands that are administered 
by another country? How might a hybrid warfare approach by China in the 
East China Sea and South China Sea create problems for the United 
States and its allies? What should the United States and its allies do 
to deter a hybrid warfare approach by China and to improve the options 
for responding in a contingency?
    Admiral Harris. China has been using a hybrid warfare approach 
(blending conventional and irregular forces to create ambiguity, seize 
the initiative, and paralyze the adversary which may include the use of 
both traditional military and asymmetric systems) for years to 
incrementally increase its control over its South China Sea claims and 
to put greater pressure on other South China Sea claimants. It has been 
using a similar approach to challenge Japan's exclusive administration 
of the Senkaku Islands in the East China Sea. This is a whole-of-
government Chinese approach that incorporates military and civil 
maritime forces, diplomacy, economic carrots and sticks, and legal 
warfare. If unchecked, this approach, I believe, will allow China 
eventually to be in a position through coercion or force to wrest 
control of the islands and features it claims in both the East and 
South China Seas.
    This approach is a challenge to the U.S. and its allies because it 
demands a unified, whole-of-government effort to counter it. Military 
action alone will not be sufficient to counter a Chinese approach that 
is designed to achieve its goals while remaining below the threshold of 
military conflict. That is why coordination among the interagency and 
the strengthening of our alliances and partnerships in the region are 
so important.
    Mr. Takai. Building Partner Capacity: What is the United States 
doing to build up the naval power and MLE capabilities of Southeast 
Asian countries? Please provide specific examples.
    General Scaparrotti. I believe this question would best be answered 
by the Commander of Pacific Command and would respectfully defer to 
Admiral Harris's views on this matter.
    Mr. Takai. What is your assessment of China's ability to use hybrid 
warfare tactics to gain control of small islands that are administered 
by another country? How might a hybrid warfare approach by China in the 
East China Sea and South China Sea create problems for the United 
States and its allies? What should the United States and its allies do 
to deter a hybrid warfare approach by China and to improve the options 
for responding in a contingency?
    General Scaparrotti. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. NUGENT
    Mr. Nugent. We know the Asia-Pacific is a key region for illicit 
trafficking of everything from counterfeit goods to narcotics to 
humans. How do you see illicit trafficking networks affecting U.S. 
policy interests in the Asia-Pacific region and what assets and 
capabilities do we have to tackle these threats? Additionally, are we 
seeing any indications that any of these illicit funds are being used 
by foreign terrorist organizations, or local insurgencies in places 
like Thailand or Burma, to support their operations?
    Admiral Harris. Illicit trafficking exists to generate revenue for 
the traffickers. This distinction is primarily what separates 
transnational criminal organizations from ideologically driven 
terrorist or insurgent organizations.
    I believe that how this revenue is ultimately used underlies a much 
larger national security issue. It isn't really about crime as much as 
it's about the ultimate stability of current global systems. These 
criminal organizations have amassed unprecedented wealth from illicit 
trade and they pose a significant threat. Drugs are still the foremost 
money-maker for criminal enterprises, but counterfeit goods of all 
types, endangered wildlife, and even human organs contribute to a 
massive, globalized black market enabled by technology, whose value 
even by conservative estimates would rank amongst the top twenty 
nations in the world by gross domestic product.
    No longer do we simply have a counter-drug problem, we face an 
expanding, globalized, transnational crime problem.
    Developing and transitional states offer the most fertile ground 
for growth of transnational crime and the nearly inevitable result is 
an intermingling of criminal and political power that sanctions 
corruption and undermines governmental institutions.
    I see this corruption and associated instability as one of the 
biggest impacts on U.S. interests in the Indo-Asia-Pacific.
    Instability is particularly visible in countries like Burma and 
Thailand, but exists elsewhere in the region as well. Countries 
positioned astride major drug trafficking corridors, especially those 
that also have disputed areas within their borders, are especially 
vulnerable to instability due in large part to the violence required to 
maintain these criminally lucrative areas. The illicit criminal 
networks formed by these elements are far reaching, transnational by 
definition, and between terrorism and crime is born more out of 
logistical convenience than any ideological convergence, and actually 
has its strongest overlap at the lower organizational levels. Various 
aspects of the criminal networks including travel facilitation, 
document fraud, and weapons procurement, help to meet the basic 
logistical requirements of terrorist, insurgent and criminal 
organizations across the region.
    From a Defense Department perspective, the challenge is that we are 
tasked to fight and win the nation's wars--our authorities, our 
systems, our processes and our people were all built around traditional 
nation-state threats. Four of the five priority challenges listed in 
the Fiscal Year 2018 to 2022 Defense Planning Guidance are traditional 
state actors. The increasingly asymmetric threats from non-state 
actors, from terrorists to high-end criminals, continue to present new 
and unique issues for us. We must continue to creatively examine our 
approaches to defending the homeland using DOD assets and authorities 
such as the Department's counter-narcotics program.
    My command remains actively engaged with partner nation law 
enforcement and military elements to counter these illicit activities 
and strongly advocates and supports regionally focused cooperation.
    My approach to dealing with these issues really comes down to 
partnerships and international norms. I am focused on modernizing and 
strengthening our alliances and our partnerships, and we are working to 
advance international rules and norms in everything we do. All of our 
bilateral engagements and capacity building efforts are underpinned by 
these guiding principles. Whether we are working on information sharing 
with French Polynesia to enable successful interdictions of drug 
smugglers transiting Oceania, or building capacity with Philippine 
National Police to improve maritime security in in the Sulu Sea--we are 
committed to building a cooperative network of partners to help defeat 
these threats.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
